-1-

TABLE OF APPENDICES
APPENDIX A
Lourdes Fontanillas Lopez v. Morell Bauza
Cartagena & Dapena, LLC, et al., No.
Commonwealth
of
KLAN201701134,
Puerto Rico Court of Appeals, Judicial
Region of Arecibo-Aguadilla, Panel X,
Opinion and Judgment, November 13,
2018, and its Electronic Notification
(certified translation)....................................

la

APPENDIX B
Lourdes Fontanillas Lopez u. Morell Bauza
Cartagena & Dapena, LLC, et al., No. JPE2017-0033, Commonwealth of Puerto Rico
Court of First Instance, Ponce Superior
Court, Opinion and Judgment, July 5,
2017, and its Electronic Notification
(certified translation) ..................................... 25a
APPENDIX C
Lourdes Fontanillas Lopez u. Morell Bauza
Cartagena & Dapena, LLC, et al., No. CC2018-1060, Supreme Court of Puerto Rico,
Order Denying Petition for Certiorari,
January 18, 2019, and its Electronic
Notification (certified translation).............. 43a
APPENDIX D
Lourdes Fontanillas Lopez v. Morell Bauza
Cartagena & Dapena, LLC, et al., No. CC2018-1060, Supreme Court of Puerto Rico,
Order
Denying
First
Motion
for
Reconsideration of Denial of Certiorari,

-ii-

TABLE OF APPENDICES - Continued
March 1, 2019, and its Electronic
Notification (certified translation)............... 47a
APPENDIX E
Lourdes Fontanillas Lopez v. Morell Bauza
Cartagena & Dapena, LLC, et al., No. CC2018-1060, Supreme Court of Puerto Rico,
Order Denying Second Motion for
Reconsideration of Denial of Certiorari,
April 5, 2019, and its Electronic
Notification (certified translation)............... 51a
APPENDIX F
Relevant Constitutional, Statutory and Other
Provisions................................................................

55a
U.S. Const., art. VI, cl. 2.................................... 55a
U.S. Const, amend. XIV, §1............................... 55a
28 U.S.C. §1367.................................................... 55a
32 L.P.R.A. §3120............................................... 56a
32A L.P.R.A. App. V, Rule 6.3.......................... 57a

Restatement (Second) of Judgments (1982),
§24 (comment f).......................... ...........................

57a

Restatement (Second) of Judgments (1982),
§25 (comment e)......................................................

59a

Restatement (Second) of Judgments (1982),
§26 and comment c................................................

61a

i

-ni-

TABLE OF APPENDICES - Continued
APPENDIX G
Final Judgment, United States District Court
for the District of Puerto Rico, Lourdes
Fontanillas Lopez v. Morell Bauza
Cartagena & Dapena, LLC, et al., Case
3:12-cv-01206-PG (Feb. 7, 2014)................... 66a
APPENDIX H
Excerpt of Opinion and Order, United States
District Court for the District of Puerto
Rico, Lourdes Fontanillas Lopez v. Morell
Bauza Cartagena & Dapena, LLC, et al.,
Case 3:12-cv-01206-PG (995 F.Supp.2d 21
(D.P.R. 2014)) (Feb. 7, 2014).......................... 67a
APPENDIX I
Excerpt of Petitioner’s Opposition to Motion
for Summary Judgment, filed March 20,
2017 (certified translation)............................ 69a
APPENDIX J
Excerpt of Petitioner’s Appeal Brief, filed
August 14, 2017 (certified translation)...... 83a
APPENDIX K
Excerpt of Petitioner’s Petition for Writ of
Certiorari, filed December 3, 2018
(certified translation)............. ............ ......... 112a

la

[CERTIFIED TRANSLATION*]
APPENDIX A
From: NoReply@ramajudicial.pr
To: modestobigas@yahoo.com
Date: Wednesday, November 14, 2018 10:30 AM AST
Subject: Electronic Notification KLAN201701134
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF APPEALS
PONCE JUDICIAL REGION
LOURDES FONTANILLAS LOPEZ
Plaintiff-Appellant
vs
MORELL BAUZA CARTAGENA & DAPENA, LLC
Defendants-Appellees
CASE NO.: KLAN201701134
RE:
CIVIL APPEAL

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 # Pura Reyes Gilestra ATA
#244668/NAJIT #3449 f Translations &
More: 787-637-4906
•

f '

2a

NOTIFICATION
TO: ATTY. BIGAS MENDEZ, MODESTO
MODESTOBIGAS@YAHOO.COM
ATTY. MORENO LOPEZ, GIOVANNA
GIOVANNA.MORENO@MBCDLAW.COM
ATTY. SANFILIPPO RESUMIL, ROSANGELA
ROSANGELA.SANFILIPPO@MEDICALCARD
SYSTEM.COM
GENERAL CLERK PONCE (SUP)
CENTRO JUDICIAL DE PONCE
PO BOX 7185
PONCE, PR 00732-7185
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT WITH REGARDS TO: THE
APPEAL - AUGUST 14, 2017
THIS COURT ISSUED A JUDGMENT ON
NOVEMBER 13, 2018, COPY OF WHICH IS
ATTACHED OR INCLUDES A LINK:
Click here to access the electronic document subject to
this notification. The document will be available
through this link for 45 davs from the date the
notification was filed in the record.
YOU ARE ADVISED THAT UPON YOU BEING A
PARTY OR LEGAL REPRESENTATIVE IN THE
CASE SUBJECT OF THIS JUDGMENT, FOR
WHICH AN APPEAL OR CERTIORARI MAY BE
FILED THEREIN, IN ACCORDANCE WITH THE

3a

TERMS AND PROCEEDINGS ESTABLISHED
UNDER LAW, RULE OR REGULATIONS, I AM
NOW ADDRESSING THIS NOTICE TO YOU.
I FURTHER CERTIFY THAT I HAVE TODAY SENT
A COPY OF THIS NOTICE TO THE ABOVE
INDICATED PERSONS TO THEIR ADDRESSES AS
REGISTERED IN THE CASE, IN ACCORDANCE
TO APPLICABLE NORMS. COPY OF THIS NOTICE
WAS FILED INTO THE CASE DOCKET ON THIS
SAME DATE.
IN SAN JUAN, PUERTO RICO, THIS 14™ OF
NOVEMBER, 2018.
LILIA M. OQUENDO SOLIS
NAME OF THE APPEALS COURT CLERK
BY: /S/ENIBETH GARCIA RIVERA
NAME AND SIGNATURE OF DEPUTY COURT
CLEK
OAT 1835-Single Notification Form — Court of Appeals (March
2017)

4a

[CERTIFIED TRANSLATION*]
COMMONWEALTH OF PUERTO RICO
COURT OF APPEALS
ARECIBO-AGUADILLA JUDICIAL REGION
PANEL X
LOURDES FONTANILLAS LOPEZ
Appellant
v.
MORELL, BAUZA, CARTAGENA & DAPENA,
L.L.C.; RAMON ENRIQUE DAPENA GUERRERO;
ANTONIO BAUZA SANTOS; EDGARDO
CARTAGENA SANTIAGO; PEDRO ANTONIO
MORELL LOSADA; LOURDES M. VAZQUEZ;
UNKNOWN INSURANCE COMPANIES A, B, C;
JANE DOE; JOHN DOE AND UNKNOWN
COMPANIES X, Y, Z
Appellees
KLAN201701134

APPEAL FROM THE COURT OF FIRST
INSTANCE, PONCE PART

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

5a

Case No.: J PE2017-0033
RE:
WRONGFUL TERMINATION, RETALIATION,
DISCRIMINATION, HOSTILE WORK
ENVIRONMENT, TORTS AND DAMAGES,
WAGES, BREACH OF CONTRACT
(Note: There are three sets of initials on the left-hand
margin of every page. There is a note in small font on
the left-hand bottom of this page which reads as
follows: Identifier Number
SEN2018
Panel formed by its president, Judge Gomez Cordova,
Judge Brignoni Martir and Judge Adames Soto
Adames Soto, Judge who wrote the Opinion
JUDGMENT
In San Juan, Puerto Rico, this November 13, 2018.
Comes now Lourdes Fontanillas Lopez (Mrs.
Fontanillas Lopez or appellant), requesting the
reversal of a judgment issued on July 5, 2017 by the
Court of First Instance, Ponce Part, (CFI). By means
of said judgment the CFI dismissed with prejudice the
Complaint for wrongful termination (Law 80-1976),
gender discrimination (Law 100-1959, Law 69-1985
and Law 17-1988) and the claim for accrued salaries,
filed by the appellant against her former employer,
Morell, Bauza, Cartageria & Dapena (MBCD or the

6a

appellee), through the summary proceeding
emanating from Law 2-1961, 32 LPRA sec. 3119 et.
seq. The appealed forum concluded that the claims of
the complaint constituted claim preclusion as they
were adjudicated in a suit filed by the appellant in the
federal jurisdiction, and on which judgment was
rendered on February 7, 2014.
Having examined the matters brought before our
consideration, the modification of the appealed
judgment is appropriate.
I
Next, we state the factual and procedural
background that motivated the filing of the abovecaptioned appeal.
Mrs. Fontanillas Lopez is a lawyer admitted to the
practice of the profession in the courts of the
Commonwealth of Puerto Rico, and worked as such in
MBCD.
The appellant claimed to MBCD the payment of
her accrued benefits and her salary as of October 3,
2011, last day in which she worked for the employerappellee. Then, on March 23, 2012, she filed a
Complaint against MBCD before the Federal District
Court for Puerto Rico, under Title VII of the Civil
Rights Act of 1964, 42 USCA sec. 2000e et seq., in
addition requested supplemental jurisdiction over her
claims under the following Puerto Rico laws: Law 1001959, Law 69-1985, Law 17-1988, and Articles 1802
and 1803 of the Puerto Rico Civil Code.
On February 7, 2014 the Federal Court granted a
motion for summary judgment filed by MBCD,

7a
dismissing with prejudice the Complaint filed under
Title VII of the Civil Rights Act of 1964, 42 USCA sec.
2000e et seq., but without prejudice to those
supplementary claims filed under the protection of
state legislation. In its summary judgment the
federal forum included a list of 171 undisputed facts,
concluding that, even evaluating the evidence in the
most favorable way to the plaintiff, and granting her
the benefit of any reasonable inference, the dismissal
of the cause of action was appropriate.
After several procedural incidents, on January 27,
2017, Mrs. Fontanillas Lopez filed a complaint before
the state primary forum against her former employer,
MBCD, her capital partners, and her administrator,
under the summary procedure provided by Law 21961.
In sum (adjusted), she argued that her
termination was carried out without just cause, as it
was the result of a pattern of discrimination,
harassment based on gender, and retaliations for
complaining.
Accordingly, she invoked the
protections recognized by Law 100-1959, Law 80~ 1986, Law 69-1985 and Law 17-1988, cited above.
In addition, the appellant alleged in the complaint
that by letter sent to MBCD on February 3, 2012, she
requested the payment of her salary corresponding to
October 3, 2011, and had not received it because she
was paid the incorrect amount, that there was an
error in calculating the vacation leave accumulated,
which is why she had to return the check; she
requested the payment of her outstanding balance
from the expense account. In essence, she claimed her
liquidation of accumulated benefits including
vacation and expense account.

8a
On the other hand, MBCD appeared before the CFI
by Answer to Complaint, Motion for Summary
Judgment and Request for Sanctions on February 28,
2017. They argued that Mrs. Fontanillas Lopez had
already filed an identical lawsuit before the Federal
District Court for the District of Puerto Rico (Federal
Court). Accordingly, they raised the affirmative
defense of claim preclusion1 and attached to their
writing copy of the Complaint filed by Mrs.
Fontanillas Lopez before the Federal Court, the
answer filed by them before said forum and the
Opinion and Order issued by the Federal Court on
February 7, 2014.2 In accordance with the decision of
the Federal Court, they requested that the complaint
filed by Mrs. Fontanillas Lopez before the CFI be
dismissed as claim preclusion.
On March 20, 2017 Mrs. Fontanillas Lopez
opposed the request for dismissal and requested the
entry of default against MBCD due to understanding
that the filed Answer to the Complaint did not comply
with the requirements imposed on the employer by
Law 2, supra.
As we anticipated, by means of Judgment issued
on July 5, 2017, the CFI dismissed the Complaint filed
by Mrs. Fontanillas Lopez, on the understanding that
the claim was res judicata in the form of collateral
estoppel. It determined that the entry of default was
not proper since the responsive plea of MBCD
1 From the Answer to Complaint only the affirmative defense of
claim preclusion was raised, without including any of its aspects
of collateral estoppel or claim-splitting.
2 See, Fontanillas v. Morell, Bauza, Cartagena & Dapena, LLC,
995 F. Supp.2d 21.

9a
included as an affirmative defense that the complaint
filed was claim preclusion. It reasoned that, although
MBCD presented its allegations and affirmative
defenses in a table and/or annex format, said format
complied with the requirements of Law 2, supra.
The CFI settled in its dismissal judgment that the
facts alleged in both Complaints (the one filed before
the federal forum and the Complaint in this case) were
‘identical and were adjudicated by a competent court;
that in the Judgment rendered by the Federal Court
171 determinations of fact were made that required
that it be concluded that the termination of
employment of the appellant was justified and nondiscriminatory; and that the allegations could not be
re-litigated. It based its Judgment on the ruling of our
highest forum in Santiago Leon v. Municipio de San
Juan, 177 DPR 43 (2009).
In disagreement, Mrs. Fontanillas Lopez appears
before this Court of Appeals by means of the abovecaptioned appeal and indicates that the primary
forum had erred as follows:
INDICATIONS OF ERROR:
A. THE CFI ERRED BY NOT DETERMINING
THAT THE DEFENDANTS DID NOT RAISE
IN THEIR FIRST RESPONSIVE PLEADING
IN A CLEAR, PRECISE AND SPECIFIC
MANNER THE AFFIRMATIVE DEFENSE OF
COLLATERAL ESTOPPEL OR ISSUE
PRECLUSION IN THE ABOVE-CAPTIONED
CASE AND THAT THEREFORE THEY
WAIVED THE AFORESAID DEFENSE

10a
DESPITE
THE
COMPLAINANT’S
ARGUMENTS TO THAT END.
B. THE CFI ERRED BY RAISING MOTU
PROPIO THE AFFIRMATIVE DEFENSE OF
COLLATERAL ESTOPPEL OR ISSUE
PRECLUSION IN THE ABOVE-CAPTIONED
CASE CONSTITUTING SUCH ACTION AN
ABUSE OF DISCRETION.
C. THE CFI ERRED IN DISMISSING WITH
COMPLAINANT’S
THE
PREJUDICE
COMPLAINT AS CLAIM PRECLUSION DUE
TO THE CASE FILED IN THE FEDERAL
COURT WHICH WAS DISMISSED WITHOUT

PREJUDICE AS TO THE ABOVECAPTIONED CLAIMS FILED UNDER THE
LAWS OF PUERTO RICO.
D. THE CFI ERRED IN INTERPRETATING
AND APPLYING THE FEDERAL DOCTRINE
OF CLAIM PRECLUSION TO THE ABOVECAPTIONED CASE.
On September 13, 2017, the appellees appeared
before this Court of Appeals through an Opposition to
the Appeal Brief. They argued that the defense of
federal res judicata groups the doctrines of res
judicata (claim preclusion) and collateral estoppel
(issue preclusion).
They argued that they had
demonstrated through their responsive allegation
that there was identity of parties, facts and causes of
action between the federal complaint and the instant
complaint, with a final judgment on the merits issued
by the Federal Court, which adjudicated the same
claims that the appellant tried to re-litigate before the

11a
primary forum, so that the legal concept of claim
preclusion was applicable.
II
A. Law 2-1961, 32 LPRA sec. 3118
Law 2, supra, provides a summary procedure of
labor claims for the rapid consideration and
adjudication of the complaints of workers and
employees against their employers for “any equity or
benefit, or any sum on account of compensation
for work or labor done for said employer, or for
compensation in case said workman or employee
should have been discharged from his work without
just cause”. Law 2-1961, 32 L.P.R.A. sec. 3118. See
also, Lucero v. San Juan Star, 159 D.P.R. 494 (2003);
Rodriguez v. Syntex P.R., Inc., 148 D.P.R. 604 (1999).
[Emphasis supplied].
The legislative history of Law 2, supra,
emphatically highlights the public policy in favor of
the summary process of the judicial proceedings in
which labor claims are to be heard and establishes
that the purpose of this measure is to facilitate the
speedy resolution of these lawsuits. In this way the
worker is guaranteed the prompt vindication of his
rights and his livelihood is protected. Predicated on
this, Law 2, supra, establishes a summary procedure
responding thus to the public policy of abbreviating
the procedure so that it is the least burdensome.
Davila Rivera v. Antilles Shipping, Inc., 147 D.P.R.
483 (1999).

12a
B. Affirmative Defenses and res judicata
Rule 6.3 of the Civil Procedure, 32 LPRA Ap. V,
establishes the different defenses that a defendant
may raise in his/her responsive allegation, The
defendants have a duty to raise all the affirmative
defenses they understand relevant in their first
responsive pleading, or they are deemed waived.
Presidential v. Transcaribe, 186 DPR 263 (2012); Diaz
Ayala et al. v. E.L.A., 153 DPR 675 (2001). They must
be alleged, in addition, in a clear, express and specific
manner. Id. The courts cannot raise motu proprio the
affirmative defenses to which the defendant waived,
except for the defense of lack of subject-matter
jurisdiction. Presidential v. Transcaribe, supra.
The cited procedural rule expressly identifies as an
affirmative defense that of claim preclusion. Because
it is an affirmative defense, it must be invoked in the
first responsive pleading or it shall be deemed waived.
Presidential v. Transcaribe, supra; Olmeda Nazario v.
Sueiro Jimenez, 123 DPR 294 (1989). Similarly, the
collateral estoppel and the claim-splitting are
distinguishable forms of res judicata, so that,'
like the latter, they constitute independent
affirmative defenses that must each be stated in
a clear, express and specific manner in the first
(Emphasis
and
Id.
responsive
pleading.
underlining supplied).
Although the above forms have the same purpose,
their requirements are different. Therefore, it cannot
be understood that when a defendant raises
specifically and only the form of collateral estoppel, it

(

13a
is assumed that the defendant also raised the form of
claim- splitting. Presidential v. Transcaribe, supra.
C. Res Judicata Doctrine, its aspects and its
interjurisdictional application
In our legal system the res judicata is conceived in
Art. 1204 of the Civil Code, (31 LPRA sec. 3343). This
doctrine is valuable and necessary for the sound
administration of justice, because on the one hand
ensures the government’s interest of putting an end to
litigation, and on the other hand, is interested in not
subjecting citizens to the inconvenience of having to
litigate the same cause twice. Fonseca et al. v. Hosp.
HIMA, 184 DPR 281 (2012). Regarding the latter, the
doctrine is based on the general interest of preventing
a party from suffering, unnecessarily, the
inconvenience that comes with submitting to an
additional legal procedure, particularly due to the
additional costs involved for the parties and the court
to re-litigate an issue already resolved by another
forum. Martinez v. E.L.A., 182 DPR 580 (2011).
However, the inflexible and mechanical application of
this doctrine is not proper when doing so would defeat
the ends of justice or considerations of public order.
Fonseca et al. v. Hosp. HIMA, supra.
In the cases in which a final and firm federal
judgment is presented before the CFI, and the defense
of res judicata (claim preclusion) is raised, we need to
examine the grounds invoked in the federal forum
that supported the federal jurisdiction. In this way
we can determine if it applies the state doctrine of res
judicata or the federal doctrine of res judicata.
Presidential v. Transcaribe, supra. If the ground

14a

invoked by the plaintiff to support the jurisdiction of
the District Court was the diversity of citizenship, the
res judicata effect of the federal decision will be
determined by the rules that the local forum applies
in its opinions. Santiago v. Mun. de San Juan, supra.
When the ground invoked by the plaintiff to support
the jurisdiction of the District Court is that the filed
lawsuit presents a federal question, the res judicata
effect that the federal decision will have will be
determined by the norms established by the Supreme
Court of the United States. Id.
In the federal sphere, the umbrella of res judicata
groups the doctrines of res judicata (claim preclusion)
The
and collateral estoppel (issue preclusion).
Supreme Court of the United States has defined the
aspect of claim preclusion or res judicata of the
doctrine of res judicata, as that impediment that
makes it impossible to litigate again the same cause
of action already resolved, including any other action
or defense that should or could have been raised in the
original lawsuit and in which judgment has already
been rendered. On the other hand, the aspect of
collateral estoppel of the doctrine of res judicata refers
to the impediment of re-litigating an issue of fact or
law that was already raised and resolved in a previous
lawsuit, and whose resolution was core or essential to
the matter resolved in the initial lawsuit. Martinez
Diaz v. ELA, supra, at pages 585-586, citing Taylor v.
Sturgell, 553 U.S. 880, 892 (2008).
The federal doctrine of res judicata is based on the
interest in preserving the finality, effectiveness and
certainty of judgments. Such a federal doctrine is not
a mere procedural tool inherited from technical-

15a
procedural times. It is a fundamental doctrine of
substantial justice, public policy and private peace
that should be invoked and reinforced by the courts.
As a general rule, the aforementioned federal doctrine
holds that any final judgment issued by a competent
Court that adjudicates the merits of the claims filed,
prevents that the same parties relitigate between
them the same causes of action already adjudicated.
In order for the federal doctrine of claim preclusion or
res judicata to be successfully invoked, the following
requirements must be satisfied: (1) identity of the
parties; (2) identity of causes of action, and (3) a final
judgment adjudicating the merits of the same
controversies. Once the aforementioned requirements
are fulfilled, if the adjudicated causes of action are
claimed again, the rendered judgment prevents the
re-litigation, between the same parties, of the causes
of action adjudicated or those that could have been
adjudicated if they had been claimed. Santiago Leon
v. Municipio de San Juan, 177 DPR 43, 50-51 (2009).
As for the requirement of the identity of causes of
action, this requirement is similar to the concept of
cause or reason for request included in our doctrine of
res judicata. It is of little importance whether both
lawsuits originate under different laws, because the
same right can be protected by more than one legal
provision. What is important is that the cause or
reason for claiming in both lawsuits stems from a
common nucleus of operative facts, that it be a factual
clone, or that it stems from the same conduct,
transaction or occurrence. Santiago Leon v. Municipio
de San Juan, supra, at pages 51-52. In determining
whether there is an identity of causes of action, we

16a
must ask whether both claims are based on the same
transaction or nucleus of facts. Martinez Diaz v. ELA,
supra, at page 586.
Ill
A
The first four errors are susceptible of being
discussed together and so we will proceed, The
fundamental question that the appellant presents to
us through these can be reduced to the following; the
appealed party did not raise the defense of collateral
estoppel in their answer to the complaint, ergo,
waived it, thus preventing the effects of res judicata
in the state lawsuit. She argues that the Federal
Court dismissed with prejudice the claims filed under
Title VII, but that since it declined to assume
regulatory jurisdiction over the claims filed under the
laws of Puerto Rico and dismissed them without
prejudice, the doctrine of res judicata does not apply.
The appellees argue, on the one hand, that in the
answer to the complaint they invoked the defense of
federal claim preclusion, which groups the doctrine of
collateral estoppel (issue preclusion), so that the CFI
was right to consider it as an affirmative defense. On
the other hand, they maintain that, in any case, they
succeeded in explaining and demonstrating that all
the elements to apply the aspect of res judicata {claim,
preclusion) were present, for which reason the
appealed decision must be upheld.
We need to start by clarifying that by virtue of the
categorical interpretation that our Supreme Court
established in Presidential v. Transcaribe, supra, the
affirmative defenses of collateral estoppel or claim-

17a
splitting are not understood subsumed in that of the
res judicata. With greater precision, although related,
the three affirmative defenses mentioned are
independent, so they must be expressly raised in the
answer to the complaint, in a specific manner, to take
effect, otherwise they will be considered waived. This
reasoning is perfectly applicable to the summary
proceeding provided under Law 2, supra, since it
expressly mentions that the defenses or objections
that the defendant does not raise in its response to the
complaint will be deemed waived. (32 LPRA sec.
3120).
On the other hand, the issue of the
interjurisdictional application of the defense of res
judicata does not prevent against or is presented in
opposition to that explained in the previous
paragraph. Thus, it is a necessary and unavoidable
condition that the defendants have raised the defense
of res judicata (claim preclusion), claim-splitting or
collateral estoppel in a specific manner in their
answer to complaint, in order to then give way to
consider whether the grounds invoked in the federal
forum was the diversity of citizenship or a federal
question was addressed,
In this sense, the
jurisprudence related to the application of res judicata
in the interjurisdictional context does not operate as
an amendment to Rule 6.3 of Civil Procedure, supra,
that excuses the defendants of being specific and clear
in their defenses that they raised in the answer to the
complaint. It is therefore futile the discussion that
accompanies the interjurisdictional application of res
judicata, if in the answer to the complaint the

18a

appropriate defenses were not raised, that it be res
judicata, claim-splitting or collateral estoppel.
Having given careful perusal of the answer to the
complaint filed by the appellees, as evidenced in the
record before our consideration,3 we find it so clear
that the affirmative defense of claim preclusion
indeed was raised, and that no defense of collateral
estoppel was raised in an express and specific
manner, (in fact,,it was not mentioned).
In accordance with Law 2, supra, the defendant
waives all defenses or objections that the defendant
does not include in the defendant’s responsive
allegation. (32 LPRA sec 3120). In the absence of a
precise expression of the defense of collateral estoppel
(issue preclusion) in the answer to the complaint, we
consider it waived.
The foregoing does not dispose of the controversy
presented, (as the appellant seems to suggest in her
brief), since it is still necessary to verify whether the
requirements of the doctrine of claim preclusion were
met. That is, although we are prevented from
considering matters specific to the collateral estoppel
defense, it is necessary to verify whether the claim
preclusion was established.
Once proof of compliance by the appellees with the
express and clear mention of the defense of claim
preclusion, then it is appropriate to determine
whether to apply the parameters of the state or
federal doctrine to the controversy. Regarding this,
there is no doubt that in this case the federal meaning
3 Appendix B of the appeal, pages 44-125.

19a

of the doctrine of res judicata applies, as the lawsuit
initiated in the federal court was not predicated on the
diversity of citizenship, but presented a federal
question.4
As we indicated in the statement of law, the federal
doctrine of res judicata applies when between the first
and the second lawsuit there is: (1) identity of parties,
(2) identity of causes of action and (3) a final judgment
resolved on the merits Martinez Diaz v. ELA, supra,
citing Haag v. US, 589 F3d. 43, 45 (1st Cir. 2009).
With reference to the first criterion, there is no
controversy that in the case at hand there is a perfect
identity of parties. In examining the second criterion,
(if there is identity of causes of action), we must ask
whether both claims are based on the same
transaction or nucleus of facts. Martinez Diaz v. ELA,
supra. We judge that this requirement is also met, the
complaints in both forums essentially deal with the
same matters; whether the appellant’s termination of
employment was justified or not, which required
weighing a possible discriminatory act based on
gender.
Elaborating on the above, the federal judgment
discusses with precision the allegations of the parties
on discrimination based on gender and the
inapplicability of the claim for termination because of
4 We reiterate, even though in the federal sphere the res judicata
umbrella groups the doctrine of res judicata (claim preclusion)
and collateral estoppel (issue preclusion), Santiago Gonzalez v.
Mun. San Juan, supra, for the reasons discussed in the preceding
paragraphs we will limit ourselves to auscultate the application
of res judicata or claim preclusion, without referring to the
collateral estoppel.

20a

retaliation. Regarding the appellant’s claim under
Law No. 80, it should be noted that the factual
determinations of the judgment issued by the Federal
Court show that the termination was justified, and
therefore non-discriminatory. Particularly, on page
25 of the federal judgment, it emerges the express
conclusion that the termination of the appellant was
for just cause and that it was due to poor performance
and poor labor relations with the other employees and
not to gender discrimination. For these purposes, the
Federal Court determined the following;
“The defendants set forth proof evincing that
the Plaintiff was terminated because of her
performance deficiencies, her failure to
adhere to the Firms rules and her poor
personal relationships with her co-workers at
MBCD. At this final stage then, the inference
of discrimination disappears”.5
With reference to the last requirement necessary
to determine whether res judicata applies, the truth
is that in the present case there is a final and firm
judgment issued by the Federal Court on the facts
supporting the claims of gender discrimination and
unjustified termination of Mrs. Fontanillas Lopez
before the CFI. It is noteworthy the fact that the
judgment attended the appellant’s claims on their
merits. When the complaint was filed in the federal
forum, the appellant included claims and allegations
of discrimination on which the Federal Court
determined that they were not upheld and issued a
5 See page 25 of the Judgment issued in the case Civ. No. 12-1206
(PG), Exhibit 3, Appendix B, page 248 of the Appeal.

21a
judgment dismissing the Complaint filed by Mrs.
Fontanillas Lopez,
Regarding those claims of
violation of civil rights for gender discrimination and
unjustified dismissal, the allegations presented before
the CFI in the complaint are, in essence, identical to
those presented before the Federal Court. In turn, the
federal forum evaluated those allegations of gender
discrimination on their merits and concluded that the
dismissal was justified,
The Federal Court
adjudicated on the merits the labor claim of violation
of civil rights in its aspect of gender discrimination
presented by the appellant, under the protection of
federal legislation.
We reiterate, the determining factor in this case is
that the facts and allegations that make up the claim
under Title VII and the state legislation are the same
and were adjudicated on the merits by the Federal
Court. The parties are the same and the appellant is
interested in relitigating matters adjudicated by a
final and firm judgment issued by the federal forum,
namely; the alleged discrimination and the
justification for the termination. With regard to these
causes of action, we conclude that the reason for
claiming in the complaint for gender discrimination
filed before the primary forum and the alleged
unjustified dismissal, were adjudicated on the merits
by the federal forum.
We judge, on the other hand, that the refusal of the
federal forum to assume supplemental jurisdiction
over the claims protected by the state legislation does
not operate as a procedural barrier in this case
regarding the allegations of gender discrimination
and unjustified dismissal, which prevents the

22a
application of the doctrine of interjurisdictional claim
preclusion. This is due to the fact that these were
adjudicated on the merits by the Federal Court in its
judgment,
concluding
that
there
was
no
discrimination and that the dismissal was justified,
which distinguishes it from the fact situation that our
Supreme Court confronted in Martinez Diaz v. ELA,
supra.
B
It should be noted at this time that those matters
that were not litigated or adjudicated by the Federal
Court are not subject to the doctrine of res judicata.
In the case that concerns us the controversy over the
collection of salaries earned and benefits accumulated
by the appellant while working for MBCD, and that
MBCD has allegedly not yet paid, does not
constitute a claim litigated before the Federal
Court nor adjudicated by said forum. (See
paragraphs 3, 6, 7, 39, 175-177, 203-204 of the
Complaint filed before the CFI), (Ap A, 1-2, 9, 36-37,
42). We reasoned that, with regard to the aforesaid
claim of the appellant for salaries earned, the primary
forum erred in dismissing such matters of the
complaint under the grounds of res judicata. The
appellant’s wage claim is not based on the same core
of facts nor arises from the same conduct, transaction
or occurrence that gave rise to the claims under Title
VII on discrimination, hostile environment and
retaliation.
With this background, we conclude that the item
claimed by Mrs. Fontanillas Lopez on accrued wages
and accumulated benefits is not subject to res judicata

23a
by the judgment issued on February 7, 2014 by the
Federal Court,
Any sum on the account of
compensation for work or work done by the appellant
for MBCD and for accumulated benefits must
continue the corresponding procedure before the
primary forum, under the procedure established in
Law No. 2-1961.
C.
In the last error of law indicated by the appellant,
she adduces that the defendants failed to comply with
the requirements of form required by Law 2, supra, in
the answer to the complaint.
She does not persuade us. Although the format
used by the appellees when answering the complaint
is not common, (when including a table in which, in
addition to the answer to the complaint, a comparison
was made with the allegations attended in the federal
lawsuit), it must be evaluated, at the end of the day,
in light of the requirement imposed by Law 2, supra,
(32 LPRA sec. 3120), by requiring the defendant to
make a single responsive allegation in which it
includes all of its defenses and objections. In the
answer to the complaint, in effect, the appellees
included all of their defenses and objections,
confronting each of the allegations that arose from the
complaint filed and raising the defenses that they
deemed pertinent. The matter does not deserve
further clarification.
IV
For the reasons stated, we modify to the effects of
reversing only those aspects of the appealed
Judgment in which the primary forum dismissed the

24a
appellant’s claim about unpaid wages, liquidation of
accumulated benefits, including vacation and expense
As amended, we affirm the appealed
account.
judgment that dismissed the remaining claims of the
appellant as claim preclusion.
So held and ordered by the Court, and certified by
the Clerk of the Court of Appeals.
/s/

[signature]
Lilia M. Oquendo-Solis, Esq.
Clerk for the Court of Appeals

25a

[CERTIFIED TRANSLATION*]
APPENDIX B
Subject: Electronic Notification J PE2017-0033
From: NoReply@ramajudicial.pr
To: modestobigas@yahoo.com
Date: Thursday, August 3, 2017 12:51 PM
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF FIRST INSTANCE
PONCE SUPERIOR PART
LOURDES FONTANILLAS LOPEZ
Plaintiff
vs
MORELL, BAUZA, CARTAGENA & DAPENA, LLC
Defendant
CASE NO.: J PE2017-0033
CHAMBER NO.: 604
RE:
WRONGFUL TERMINATION

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

- c

26a
NOTIFICATION
TO: ATTY. BIGAS MENDEZ, MODESTO
MODESTOBIGAS@YAHOO.COM
ATTY. MORENO LOPEZ, GIOVANNA
GIOVANNA.MORENO@MBCDLAW.COM
ATTY. SANFILIPPO RESUMIL, ROSANGELA
ROSANGELA.SANFILIPPO@MBCDLAW.COM
THE UNDERSIGNED CLERK CERTIFIES AND
NOTIFIES YOU THAT WITH REGARDS TO: THE
CAPTIONED CASE THIS COURT ISSUED A
COPY IS
JUDGMENT ON JULY 5, 2017.
ATTACHED OR LINK IS INCLUDED.
Click here to access the electronic document subject to
this notification. The document will be available
through this link for 45 days from the date the
notification was filed in the record.
SIGNED MARIANO VIDAL SAENZ
JUDGE
YOU ARE ADVISED THAT UPON YOU BEING A
PARTY OR LEGAL REPRESENTATIVE IN THE
CASE SUBJECT OF THIS JUDGMENT, YOU CAN
FILE FOR AN APPEAL, REVIEW OR CERTIORARI
IN ACCORDANCE WITH THE PROCEDURE AND
WITHIN THE TERM ESTABLISHED BY LAW,
RULE OR REGULATION.

27a

I CERTIFY THAT THE RULING ISSUED BY THE
COURT WAS DULY REGISTERED AND FILED
TODAY, AUGUST 3, 2017, AND THAT A COPY OF
THIS NOTICE WAS SENT TO THE PERSONS
INDICATED ABOVE TO THEIR ADDRESSES AS
REGISTERED IN THE CASE, IN ACCORDANCE
TO APPLICABLE NORMS. COPY OF THIS NOTICE
WAS FILED INTO THE CASE DOCKET ON THIS
SAME DATE.
IN PONCE, PUERTO RICO, THIS 3^ OF AUGUST,
2017.
LUZ MAYRA CARABALLO GARCIA
NAME OF REGIONAL CLERK
BY: /S/MADELINE RIVERA MERCADO
NAME AND SIGNATURE OF DEPUTY COURT
CLEK
OAT1812-Single Notification Form — Judgments, Rulings,
Orders and Minutes (November 2016)

28a

[CERTIFIED TRANSLATION*]
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
PONCE SUPERIOR PART
LOURDES FONTANILLAS LOPEZ
Plaintiff
vs.
MORELL, BAUZA, CARTAGENA & DAPENA,
L.L.C.; RAMON ENRIQUE DAPENA GUERRERO;
ANTONIO BAUZA SANTOS; EDGARDO
CARTAGENA SANTIAGO; PEDRO ANTONIO
MORELL LOSADA; LOURDES M. VAZQUEZ;
UNKNOWN INSURANCE COMPANIES A, B, C;
JANE DOE; JOHN DOE AND UNKNOWN
COMPANIES X, Y, Z
Defendants

CIVIL No.: J PE2017-0033

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

29a
RE:
Wrongful Termination, Retaliation, Discrimination,
Hostile Work Environment, Torts and Damages,
Wages, Breach of Contract
(Note: There is a set of initials on the left-hand margin
of every page.)
JUDGMENT
Last January 27th, 2017, Atty. Lourdes
Fontanillas
Lopez
(“Fontanillas”
or
“the
complainant”) filed a complaint against a former
employer, Morell, Bauza, Cartagena & Dapena
(“MBCD”), its capital partners and its administrator.
She alleged, in short, that her dismissal came as a
result of a pattern of discrimination and harassment
by reason of her gender, of which she was a victim
during her employment with MBCD, and as a result
of reprisals for having complained about it.
Fontanillas included, in addition, claims of wages and
Christmas bonus, as well as for damages and torts.
. She also requested damages for breach of contract.
Having been summoned, the defendants timely
appeared on February 28th, 2017. In their responsive
plea, which they titled “Answer to the Complaint,
Motion for Summary Judgment and Request for
Sanctions” (“Answer”), the defendants brought to the
attention of this court that Fontanillas had already
filed a lawsuit identical to the present case before the
Federal District Court for the District of Puerto Rico
(the “Federal Court”). They attached to their brief,
among other things, a copy of the complaint filed by
Fontanillas before the Federal Court, the answer filed

30a
by them in said forum and the Opinion and Order
(“Opinion”) issued by the Federal Court in that case
on February 7, 2014 (See. Fontanillas v. Morell,
Bauza. Cartagena & Danena. L.L.C.. 995 F. Supp. 2d
21 (D.P.R. 2014)). By means of this Opinion, the
Federal Court dismissed with prejudice the federal
causes of action for discrimination, harassment and
retaliation brought by Fontanillas and dismissed also,
without prejudice, the state causes of action that she
included in the present complaint. Through the
Opinion, the Federal Court issued 171 determinations
of fact and numerous conclusions of law.
As it arises from the annexes to the Answer, in
addition to dismissing the complaint filed by
Fontanillas, the Federal Court issued a judgment in
which it condemned Fontanillas to pay the defendants
the amount of $53,662.50 in attorney’s fees for
vexation. In disagreement with the Federal Court’s
determinations, Fontanillas appeared before the
Federal Circuit Court for the First Circuit (“First
Circuit”). The First Circuit confirmed the Federal
Court by its Opinion of August 5, 2016 (see.
Fontanillas v. Morell. Bauza. Cartagena & Danena.
L.L.C.. 832 F. 3d 50 (2016)). Fontanillas did not
request review of the judgment of the First Circuit so
this one, as well as those issued by the District Court,
became final and firm.
According to the foregoing, the defendants
requested that the instant complaint be dismissed on
grounds of federal claim preclusion. They based their
request on the ruling of the Supreme Court in
Santiago Leon v. Municinio de San Juan. 177 D.P.R.

31a
43 (2009). In addition, they requested that attorneys’
fees be imposed upon Fontanillas for vexation.
Fontanillas opposed the defendants’ motion on
March 20, 2017 by means of an extensive brief,
arguing that the dismissal of her complaint is
unwarranted.
She also requested, among other
remedies, that default be entered against the
defendants deeming that the Answer did not meet the
requirements imposed by Act No. 2 of Summary
Procedure, 32 L.P.R.A. §3119 et seq (“Act 2”). The
defendants submitted a short reply in which they
asserted to have complied with the requirements of
Act 2 and reiterated their request for dismissal. The
complainant, on the other hand, submitted a surreply. Having studied all the arguments of the
parties, we proceed to resolve.
I. Request for entry of default
Before resolving the argument of claim preclusion,
it is up to us to determine whether or not the entry of
default requested by the complainant is appropriate.
The above-captioned complaint was filed on January
27th, 2017. The defendants were summoned in the
judicial district of San Juan on February 13, 2017 and
they filed their responsive pleading fifteen (15) days
afterwards, within the period required by law. The
responsive pleading included a motion for dismissal
and the specific answer, by numbered paragraph, to
each of the allegations presented by Fontanillas in her
complaint, in a table format or in an annex. The
defendants included their defenses as part of these
paragraphs and, in addition, in a list of additional
affirmative defenses that they incorporated to the

V: •' ■

32a
brief as Annex 8. The complainant received this
responsive pleading within the period prescribed by
law.
Despite of acknowledging this, the complainant
requests that default be entered against the
defendants on the basis of the following: (1) that the
defendants included some facts and affirmative
defenses in an annex, rather than in the body of the
writing; (2) that the defendants made in the Answer
reference to the facts they alleged in their answer
before the Federal Court in the lawsuit that
Fontanillas brought in said forum; and (3) that the
defendants counter-claimed against her, which it is
not permitted under Act 2. After evaluating the
applicable law, we determine that the complainant’s
request for entry of default is not appropriate.
As to the answer of the complaints, Act 2 only
states that the “the defendant shall answer in one sole
responsive plea in which he shall include all his
affirmative defenses and objections, it being
understood that he waives all defenses and objections
not embodied in said plea”. 32 L.P.R.A. §3120. A
simple reading of the Answer filed by the defendants
reveals that, indeed, they fulfilled all the procedural
requirements of Act 2. Specifically, the defendants
included (1) their basic objection from continuing with
this instant lawsuit, for they understand that it is
claim precluded; (2) their other affirmative defenses
and (3) their allegations of fact, thus discharging all of
their responsibility under Act. 2.
Although we agree with the complainant that the
defendants filed their allegations of fact and

33a
affirmative defenses in a table and/or annex format,
and we recognize that this may not be usual in the
practice, we understand that this format, however,
complies with the requirements of Act 2. We also
understand that the defendants performed the copy
and paste exercise (“copy and paste”) of the facts they
alleged in their answer to the complaint before the
Federal Court having as north the procedural
economy, because the allegations presented here and
there are essentially identical. We put on record that
the table presented by the defendants indeed
identifies the paragraph number of the allegation in
the complaint in the first column and the
corresponding answer to each paragraph in the third
column, titled “Defendants’ Answer in both lawsuits”.
And, although it is true that most of the paragraphs
in the third column are an exact copy of the text
alleged in the federal answer, this is because the
allegations of the complainant are almost identical in
both lawsuits. However, when it was necessary, the
defendants
supplemented their response to
accommodate- it to the few different allegations that
Fontanillas presented in the instant lawsuit.
We determine, in the same way, that the fact that
the defendants presented some facts and their
additional affirmative defenses in the format of an
annex to their answer, it does not contravene the
provisions of Act 2, so that action does not result in
treating that facts as not having been alleged or the
defenses as being waived. We emphasize that by
means of a footnote in the body of the answer, the
defendants informed that they were incorporating
their additional affirmative defenses through Annex 8

34a
to the Answer in order to comply with their obligation
to answer and avoid an entry of default against them.
This practice, which goes hand with their motion for
dismissal on grounds of claim preclusion, does not
violate the provisions of Act 2. The important thing is
that the complainant received a timely notification of
the employer’s defenses.
Having used the table and/or annex format cannot
have the consequence of an entry of default either.
Here, we are not before an employer who forgot to
answer within the prescribed period or that requested
an extension of time to do so. On the contrary, the
employer here defendant answered the complaint on
time, incorporated facts and defenses and made an
argument of claim preclusion. The complainant
recognizes this. Thus, the entry of default is not
appropriate.
Finally, we are not convinced by the complainant’s
argument to the effect that the legal representatives
failed to comply with Rule 9 of the Puerto Rico Rules
of Civil Procedure because they did not sign the Annex
8. None of the provisions of Act 2 or of the aforesaid
rules, the application of which is supplementary in
this proceeding, requires that the Annexes be
individually signed to be part of the plea. On the
contrary, Rule 8.3 of the Puerto Rico Rules of Civil
Procedure itself states that even copy of extrinsic
documents, when they are attached as “exhibits”, are
considered part of the primary allegation for all legal
effects. If the Rules allow extrinsic documents to be
considered part of the allegation, it is natural to also
allow that intrinsic documents, prepared by the party

35a
and presented before the Court attached to the
Answer, be considered part of the plea.
II. The alleged counterclaim
Fontanillas alleges that the Answer of the
defendants also fails to comply with the provisions of
Act No. 2 and Act No. 80 because it includes a
counterclaim against her. She is incorrect too. A
careful perusal of the defendants’ Answer reveals
that, contrary to what the complainant alleges, the
defendants merely informed this Court that there is a
final and firm judgment that condemns Atty.
Fontanillas to pay the defendants the amount of
$53,662.50 in attorneys’ fees for vexation. We have
found that there is indeed a judgment, which is
already final and firm, that condemns the
complainant to pay that sum and that it was affirmed
by the First Circuit. We have also found that nowhere
in the Answer the defendants intend to counterclaim
against the complainant.
III. The argument of claim preclusion
As emerged from the documents presented by the
defendants, the basic ground of their motion for
dismissal1 is the federal res judicata. They propose
that, as determined by our Supreme Court in Santiago
Leon v. Municinio de San Juan, 177 D.P.R. 43 (2009),
the federal claim preclusion doctrine applies in this
case in the interjurisdictional context. According to
this doctrine, a final judgment issued by a competent
court in which the claims are adjudicated upon the
merits, precludes the same parties from relitigating
1 We treat the motion of the defendants as one for dismissal.

36a
among themselves the same causes of action already
adjudicated or that could have been adjudicated if
they had been claimed. Santiago Leon, supra.
In order to analyze whether or not the
interjurisdictional claim preclusion doctrine applies to
this case we first must look to the complaint filed by
Our
the complainant before the Federal Court.
Supreme Court has established on several occasions
that the legal rules relating to the inter-jurisdictional
application of the claim preclusion doctrine vary
depending on what was alleged in the federal lawsuit.
Martinez Diaz v. ELA. 182 D.P.R. 580 (2011);
Santiago Leon, supra, at page 49. Thus, in those
circumstances where the Federal Court that rendered
the judgment that is intended to be interposed to the
lawsuit assumed jurisdiction under the doctrine of
federal question, it will be the federal law on claim
preclusion that will apply to the outlined approach to
prevent her from litigating again in the state forum.
Martinez Diaz v ELA. supra, at page 585. On the
other hand, if the federal court that rendered the
judgment assumed jurisdiction by diversity of
citizenship, the claim preclusive effect of the federal
ruling will be assessed in accordance with the state
law of the defense of claim preclusion. Diaz v.
Navieras de P.R.. 118 D.P.R. 297, 303 (1987); Wright,
Miller & Cooper, Federal Practice and Procedure.
§4468(2002).
In the case at hand there is no controversy as to
that the Federal Court assumed jurisdiction in the
lawsuit initiated by Atty. Fontanillas under the
Specifically, the
doctrine of federal question,
complainant sued there the here defendants mainly

37a
under the canopy of Title VII of the Civil Rights Act of
1961, as amended. Therefore, the request of the
defendants should be analyzed based on the federal
doctrine of res judicata. Let us, thus, examine the
aforesaid doctrine.
The federal doctrine of res judicata
At the federal level, the umbrella of res judicata
groups the doctrines of claim preclusion (res judicata)
and of issue preclusion (collateral estoppel). The
Supreme Court of the United States has defined the
claim preclusion aspect as the impediment that
precludes litigating again the same cause of action
already resolved, including any other action or
defense that should or could have been raised in the
original lawsuit or in which a judgment was entered.
On the other hand, the collateral estoppel aspect of
the res judicata doctrine refers to the impediment to
relitigating an issue of fact or law which was already
raised and resolved in a prior lawsuit, and whose
resolution was core or essential to the matter resolved
in the initial lawsuit. Taylor v. Sturgell. 533 U.S. 880,
892 (2008); New Hampshire v. Maine. 532 U.S. 742,
748-749 (2001); Martinez Diaz, supra, at page 586.
The claim preclusion aspect applies when between
the first suit and the second there is: (i) identity of
parties, (2) identity of causes of action and (3) a final
judgment on the merits. To determine if there is
identity of causes of action, the crucial thing is to
determine whether both claims are based on the same
transaction or nucleus of facts. This is so even if there
are different legal sources. Santiago Leon v. Municipio

38a
de San Juan, supra; Martinez Diaz, supra, at page
586.
The issue preclusion aspect, on the other hand,
requires that it is demonstrated (1) that the issue or
matter sought to be precluded in the later action is the
same that was determined in the earlier action; (2)
that that issue was actually litigated; (3) that the
issue was determined by a valid and binding final
judgment, and (4) that this determination was
essential to the judgment rendered. Ramallo Brothers
Printing v. El Dia, 490 F. 3d 86, 90 (1st Cir., 2007).
Also, the federal forums consider whether, in fact, the
party against whom the doctrine is raised had a fair
opportunity to litigate the issue sought to be
precluded; in addition to pondering whether the
mechanical application of the doctrine would lead to a
failure to justice. Wright, Miller and Cooper. Sec.
4416.
These two aspects of the federal doctrine of res
judicata pursue the same purpose: to add to the public
policy of judicial procedural economy. As explained by
our Supreme Court of the United States, its main
purpose is to avoid incongruous decisions and
encourage the reliability and respect in the
adjudication of cases. Arizona v. California. 460 U.S.
605, 619 (1983). They also attempt to endorse the
high public interest in which lawsuits have an end
and do not acquire eternal life. Santiago Leon, supra.
Application of the federal doctrine of res judicata to
the case at hand
There is no controversy that the parties are the
same both in this lawsuit as in the one brought in

39a
2013 by Atty. Fontanillas before the Federal Court;
one only has to look at the captions of both cases.
There is no controversy either in that there is no one,
but several final and firm judgments, adjudicated on
the merits in such a lawsuit. It remains thus to assess
whether the issue sought to be precluded from
relitigating in this lawsuit is the same that was
determined in the lawsuit before the Federal Court
and whether there is identity as to the causes of action
presented in both forums.
We have evaluated the complaint filed by Atty.
Fontanillas before the Federal Court.
When
compared to the lawsuit filed in the case at hand, we
determined that the facts alleged in both complaints
are essentially identical, constituting the complaint at
hand an almost literal translation to Spanish of the
complaint filed before the Federal Court. According
to the Exhibit 3 of the Answer, the Federal Court
already assessed those allegations and made 171
determinations of fact that are collected in its
judgment, final and firm, of February 7, 2014. After
examining the
complainant’s
allegations
of
discrimination, the Federal Court made them on the
merits and concluded that the termination was
justified. The allegations presented here by the
complainant, therefore, were already adjudicated by a
competent court.
In evaluating the causes of action alleged by Atty.
Fontanillas before the Federal Court and comparing
them to those alleged before this forum, it also turns
out that they are essentially the same and arise from
the same nucleus of facts. We recognize that in her
complaint at hand the complainant alleges violation

40a
of State statutes only and that before the Federal
Court she filed her claim also under Title VII of the
Federal Civil Rights Act. However, as we have
already established, our Supreme Court has
explained that in order to determine if there is
identity as to the causes of action in one and another
lawsuit,
“it is of little importance whether both suits
originate under different laws, because the
same right can be protected by more than one
legal provision. What is important is that the
cause or reason for claiming in both lawsuits
stems from a common nucleus of operative
facts, that it be a factual clone, or that it stems
from the same conduct, transaction, or
occurrence.” Santiago Leon v. Municipio de
San Juan, at page 52.
So, we determine that there is also identity as to
the causes of action presented by Atty. Fontanillas in
both forums.
We take this determination even though our
system provides exceptions to the automatic
application of this doctrine. Mainly, the exceptions
operate when the automatic application of the
doctrine affects a public interest or causes a great
injustice. Santiago v. Municipio. supra, at page 53.
However, after evaluating the entire judicial dossier
before us, we concluded that this lawsuit is not
covered by these exceptions.
Contrary to what the complainant alleges, the
dismissal of this complaint does not have the effect of
causing a grave injustice. The complainant litigated

41a
before the Federal Court and then before the First
Circuit, against the same parties, with the same facts
and with the same theories that she pretends now to
re-litigate before this forum,
She had ample
opportunity to present her case and so she did,
repeatedly, being even sanctioned for acting
vexatiously. She did not prevail. That, however, does
not grant her the right to re-litigate issues that are
already resolved in a final and firm manner. On the
contrary, to allow the continuation of this lawsuit,
would indeed cause an injustice to the defendants,
who have had to defend previously in two forums from
the same allegations, with the expenses that that
entails.
We finally determined that, taking into
consideration the procedural background of the
present lawsuit during the past four years, the filing
of the present complaint is not justified.
For the foregoing, the motion for dismissal for
claim preclusion filed by the defendants* is granted
and the present complaint is dismissed with
prejudice.
REGISTER AND NOTIFY.
In Ponce, Puerto Rico, today July 5, 2017.
/s/
[signature]
MARIANO VIDAL SAENZ
SUPERIOR JUDGE
*Note: The Judgment in its original version in
Spanish mistakenly referred to the complainant in the

42a
antepenultimate paragraph as the one filing the
motion for dismissal.

43a

[CERTIFIED TRANSLATION*]
APPENDIX C
From: NoReply@ramajudicial.pr
To: modestobigas@yahoo.com
Sent: Thursday, January 24, 2019 04:54:18 PM AST
Subject: Electronic Notification CC-2018-1060
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT
LOURDES FONTANILLAS LOPEZ
Petitioner
vs
MORELL, BAUZA, CARTAGENA & DAPENA, LLC
AND OTHERS
Respondents
CASE NUMBER: CC-2018-1060
ORIGINAL: J PE2017-0033
APPEALS: KLAN201701134
SPECIAL PROCEDURES
CIVIL ACTION OR CRIME
*Certified, to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

44a

ATTY. BIGAS MENDEZ, MODESTO
MODESTOBIGAS@YAHOO.COM
NOTIFICATION
I CERTIFY THAT IN RELATION TO THE
PETITION FOR A WRIT OF CERTIORARI THE
COURT ISSUED THE RESOLUTION THAT IS
ENCLOSED.
Click here to access the electronic document subject to
this notification. The document will be available
through this link for 45 days from the date the
notification was filed in the record.
ATTY. MORENO LOPEZ, GIOVANNA
GIOVANNA.MORENO@MBCDLAW.COM
ATTY. SANFILIPPO RESUMIL, ROSANGELA
ROSANGELA.SANFILIPPO@MEDICALCARD
SYSTEM.COM
IN SAN JUAN, PUERTO RICO, ON JANUARY 24,
2019.
ATTY. JOSE IGNACIO CAMPOS PEREZ
CLERK OF THE SUPREME COURT
BY: S/ ROSALIA PABON RIVERA
DEPUTY CLERK

45a

[CERTIFIED TRANSLATION*]
IN THE SUPREME COURT OF PUERTO RICO
CHAMBER III
Lourdes Fontanillas Lopez,
Petitioner,
v.
Morell Bauza Cartagena & Dapena LLC; Ramon
Enrique Dapena Guerrero; Antonio Bauza Santos;
Edgardo Cartagena Santiago; Pedro Antonio Morell
Losada; Mrs. Lourdes M. Vazquez; Unknown
Insurance Companies A, B, C; Jane Doe; John Doe
and Unknown Companies X, Y, Z,
Respondents.
CC-2018-1060

Judges’ Chamber formed by Associate Judge Mr.
Martinez Torres as its President, and Associate
Judges Mr. Rivera Garcia and Mr. Colon Perez

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

; .. • ,

46a
RESOLUTION
In San Juan, Puerto Rico, this 18th of January, 2019.
To the petition for certiorari filed by the
petitioner, Lourdes Fontanillas Lopez, it is denied.
Agreed by the Court and certified by the Clerk
of the Supreme Court.
Is/

[signature]
Jose Ignacio Campos Perez
Clerk of the Supreme Court
[seal]
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT

47a

[CERTIFIED TRANSLATION*]
APPENDIX D
From: NoReply@ramajudicial.pr
To: modestobigas@yahoo.com
Sent: Monday, March 4, 2019 10:27:23 AM AST
Subject: Electronic Notification CC-2018-1060
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT
LOURDES FONTANILLAS LOPEZ
Petitioner
vs
MORELL, BAUZA, CARTAGENA & DAPENA, LLC
AND OTHERS
Respondents
CASE NUMBER: CC-2018-1060
ORIGINAL: J PE2017-0033
APPEALS: KLAN201701134
SPECIAL PROCEDURES
CIVIL ACTION OR CRIME
*Certified, to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

48a

ATTY. BIGAS MENDEZ, MODESTO
MODESTOBIGAS@YAHOO.COM
NOTIFICATION
I CERTIFY THAT IN RELATION TO THE MOTION
FOR RECONSIDERATION THE COURT ISSUED
THE RESOLUTION THAT IS ENCLOSED.
Click here to access the electronic document subject to
this notification. The document will be available
through this link for 45 days from the date the
notification was filed in the record.
ATTY. MORENO LOPEZ, GIOVANNA
GIOVANNA.MORENO@MBCDLAW.COM
ATTY. SANFILIPPO RESUMIL, ROSANGELA
RO SANGELA. SANFILIPPO@MEDICALCARD
SYSTEM.COM
IN SAN JUAN, PUERTO RICO, ON MARCH 4, 2019.
ATTY. JOSE IGNACIO CAMPOS PEREZ
CLERK OF THE SUPREME COURT
BY: S/ ROSALIA PABON RIVERA
DEPUTY CLERK

49a

[CERTIFIED TRANSLATION*]
IN THE SUPREME COURT OF PUERTO RICO
CHAMBER II
Lourdes Fontanillas Lopez,
Petitioner,
v.
Morell Bauza Cartagena & Dapena LLC; Ramon
Enrique Dapena Guerrero; Antonio Bauza Santos;
Edgardo Cartagena Santiago; Pedro Antonio Morell
Losada; Mrs. Lourdes M. Vazquez; Unknown
Insurance Companies A, B, C; Jane Doe; John Doe
and Unknown Companies X, Y, Z,
Respondents.
CC-2018-1060

Judges’ Chamber formed by Associate Judge Mrs.
Rodriguez Rodriguez as its President, and Associate
Judges Mr. Kolthoff Caraballo and Mr. Estrella
Martinez
*Certified, to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 # Pura Reyes Gilestra ATA
#244668/NAJIT #3449 # Translations &
More: 787-637-4906

50a
RESOLUTION
In San Juan, Puerto Rico, this 1st of March, 2019.
Having addressed the First motion for
reconsideration filed by the petitioner of the captioned
case, it is denied.
Agreed by the Court and certified by the Clerk
of the Supreme Court. The Associate Judge Mr.
Estrella Martinez would have reconsidered.
Is/

[signature]
Jose Ignacio Campos Perez
Clerk of the Supreme Court
[seal]
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT

51a

[CERTIFIED TRANSLATION*]
APPENDIX E
From: NoReply@ramajudicial.pr
To: modestobigas@yahoo.com
Sent: Friday, April 12, 2019 03:53:02 PM AST
Subject: Electronic Notification CC-2018-1060
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT
LOURDES FONTANILLAS LOPEZ
Petitioner
vs
MORELL, BAUZA, CARTAGENA & DAPENA, LLC
AND OTHERS
Respondents
CASE NUMBER: CC-2018-1060
ORIGINAL: J PE2017-0033
APPEALS: KLAN201701134
SPECIAL PROCEDURES
CIVIL ACTION OR CRIME
*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 4 Translations &
More: 787-637-4906

52a

ATTY. BIGAS MENDEZ, MODESTO
MODESTOBIGAS@YAHOO.COM
NOTIFICATION
I CERTIFY THAT IN RELATION TO THE SECOND
MOTION FOR RECONSIDERATION THE COURT
ISSUED THE RESOLUTION THAT IS ENCLOSED.
Click here to access the electronic document subject to
this notification. The document will be available
through this link for 45 days from the date the
notification was filed in the record.
ATTY. MORENO LOPEZ, GIOVANNA
GIOVANNA.MORENO@MBCDLAW.COM
ATTY. SANFILIPPO RESUMIL, ROSANGELA
ROSANGELA.SANFILIPPO@MEDICALCARD
SYSTEM.COM

IN SAN JUAN, PUERTO RICO, ON APRIL 12, 2019.
ATTY. JOSE IGNACIO CAMPOS PEREZ
CLERK OF THE SUPREME COURT
BY: S/ ROSALIA PABON RIVERA
DEPUTY CLERK

53a

[CERTIFIED TRANSLATION*]
IN THE SUPREME COURT OF PUERTO RICO
CHAMBER I
Lourdes Fontanillas Lopez,
Petitioner,
v.
Morell Bauza Cartagena & Dapena LLC; Ramon
Enrique Dapena Guerrero; Antonio Bauza Santos;
Edgardo Cartagena Santiago; Pedro Antonio Morell
Losada; Lourdes M. Vazquez; Unknown Insurance
Companies A, B, C; Jane Doe; John Doe and
Unknown Companies X, Y, Z,
Respondents.
CC-2018-1060

Judges’ Chamber formed by Chief Judge Oronoz
Rodriguez, the Associate Judge Mrs. Pabon Charneco
and the Associate Judge Mr. Feliberti Cintron

*Certified to be a true and exact translation
from the original text in Spanish to the target
language English.
06/JUNE/2019 4 Pura Reyes Gilestra ATA
#244668/NAJIT #3449 # Translations &
More: 787-637-4906

i.(&\
‘■i

r<

§

54a
RESOLUTION
In San Juan, Puerto Rico, this 5th of April, 2019.
Having addressed the Second motion for
reconsideration filed by the petitioner, it is hereby
denied. Abide by what this Court has resolved.
Agreed by the Court and certified by the Clerk
of the Supreme Court. The Chief Judge Oronoz
Rodriguez would have reconsidered.
/s/

[signature]
Jose Ignacio Campos Perez
Clerk of the Supreme Court
[seal]
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
SUPREME COURT

55a
APPENDIX F
Relevant Constitutional, Statutory and
Other Provisions
U.S. Const., art. VI, cl. 2 (“Supremacy Clause”)
This Constitution, and the laws of the United States
which shall be made in pursuance thereof; and all
treaties made, or which shall be made, under the
authority of the United States, shall be the supreme
law of the land; and the judges in every state shall be
bound thereby, anything in the Constitution or laws
of any State to the contrary notwithstanding.
U.S. Const, amend. XTV, §1
***No State shall ifkrk deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
28 U. S. C. §1367
(a) Except as provided in subsections (b) and (c) or as
expressly provided otherwise by Federal statute, in
any civil action of which the district courts have
original jurisdiction, the district courts shall have
supplemental jurisdiction over all other claims that
are so related to claims in the action within such
original jurisdiction that they form part of the same
case or controversy under Article III of the United
States Constitution. Such supplemental jurisdiction
shall include claims that involve the joinder or
intervention of additional parties.
•k'kie

56a
(c) The district courts may decline to exercise
supplemental jurisdiction over a claim under
subsection (a) if —
(1) the claim raises a novel or complex issue of State
law,
(2) the claim substantially predominates over the
claim or claims over which the district court has
original jurisdiction,
(3) the district court has dismissed all claims over
which it has original jurisdiction, or
(4) in exceptional circumstances, there are other
compelling reasons for declining jurisdiction.

(e) As used in this section, the term “State” includes
the District of Columbia, the Commonwealth of
Puerto Rico, and any territory or possession of the
United States.
P.R. Laws Ann. Tit. 32 Sec. 3120. Court order for
defendant to file an answer; notice, answer;
application of Rules of Civil Procedure (32
L.P.R.A. §3120)

Defendant shall answer in one sole responsive plea in
which he shall include all his defenses and objections,
it being understood that he waives all defenses and
objections not embodied in said plea.
In all cases prosecuted under §§ 3118—3132 of this
title, the Rules of Civil Procedure shall govern insofar
as they are not in conflict with the specific provisions

57a
of these/Sections or with the summary nature of the
procedure hereby established; ....
'k'k'k

In no case prosecuted under §§ 3118-3132 of this title
may the complainant workman or employee be
countersued or countercharged for any cause.
'krk'k'k

P.R. Laws Ann. Tit. 32 Appendix V. Rules of Civil
Procedure for the General Court of Justice, 2009
(32A L.P.R.A. App. V)
Rule 6.3. - Affirmative Defenses. In responding to a pleading, the following defenses
shall be affirmatively stated: •k'k'k (h) impediment,
•k'k'k
(p) res judicata,
and any other matter
constituting an avoidance or affirmative defense.
These defenses shall be clear, direct, and concise when
responding to a pleading or they shall be deemed as
waived, unless the party becomes aware of the
existence of the same during discovery, in which case,
an amendment to the pertinent pleading shall be
made.

Restatement (Second) of Judgments (1982), §§24
(comment f), 25 (comment e), and 26
§24 Dimensions of “Claim” for Purposes of
Merger or Bar -General Rule Concerning
“Splitting”

58a
f. Change of circumstances. Material operative facts
occurring after the decision of an action with respect
to the same subject matter may in themselves, or
taken in conjunction with the antecedent facts,
comprise a transaction which may be made the basis
of a second action not precluded by the first. See
Illustrations 10-12. Where important human values - such as the lawfulness of a continuing personal
disability or restraint - are at stake, even a slight
change of circumstances may afford a sufficient basis
for concluding that a second action may be brought.
Compare § 13, Comment c (judgments granting or
denying continuing relief); § 20(2) (judgment for
defendant when action is premature); § 25, Comment
c (attempts to recover increased damages); § 26(f)
(extraordinary situations where merger or bar is
inapposite).
Illustrations:
10. A brings an action against B to set aside a transfer
of land on the ground that it was procured by fraud.
A fails to prove the fraud and judgment is given for
the defendant. A is not precluded from maintaining
an action to recover the land on the ground that since
judgment was rendered B has forfeited the land to the
plaintiff for breach of a condition in the conveyance.
11. A judgment of divorce awards custody of a minor
child of the marriage to the wife after a contest over
Upon a later
her suitability as a mother,
demonstration by the husband, on the basis of
subsequent experience, that the wife is in fact
unsuitable, custody may be awarded to the husband.

59a
12. The government fails in an action against a
defendant under an antitrust statute for lack of
adequate proof that the defendant participated in a
conspiracy to restrain trade. The government is not
precluded from a second action against the same
defendant in which it relies on conspiratorial acts
post-dating the judgment in the first action, and may
rely also on acts preceding the judgment insofar as
these lend significance to the later acts.

§25 Exemplifications
Concerning Splitting

of

General

Rule

Comments & Illustrations
e. State and federal theories or grounds. A given claim
may find support in theories or grounds arising from
both state and federal law. When the plaintiff brings
an action on the claim in a court, either state or
federal, in which there is no jurisdictional obstacle to
his advancing both theories or grounds, but he
presents only one of them, and judgment is entered
with respect to it, he may not maintain a second action
in which he tenders the other theory or ground. If
however, the court in the first action would clearly not
have had jurisdiction to entertain the omitted theory
or ground (or, having jurisdiction, would clearly have
declined to exercise it as a matter of discretion), then
a second action in a competent court presenting the
omitted theory or ground should be held not
precluded. See Illustrations 10-11.

60a
Compare § 26(l)(c), Comment c (1), dealing with the
case where the plaintiff is unable for jurisdictional
reasons to present both the state and federal theories
or grounds in the first action. See also § 86.
Illustrations:
10. A commences an action against B in a federal
court for treble damages under the federal antitrust
laws.
After trial, judgment is entered for the
defendant. A then seeks to commence an action" for
damages against B in a state court under the state
antitrust law grounded upon substantially the same
business dealings as had been alleged in the federal
action. Even if diversity of citizenship between the
parties did not exist, the federal court would have had
“pendent” jurisdiction to entertain the state, theory.
Therefore, unless it is clear that the federal court
would have declined as a matter of discretion to
exercise that jurisdiction (for example, because the
federal claim, though substantial, was dismissed in
advance of trial), the state action is barred.
11. A sues B on a common law basis in a state court
for unfair competition. After trial judgment is entered
for the defendant. A then attempts to bring an action
against B in a federal court upon the same behavior,
now claiming infringement of A’s federally protected
trademark. The action is barred. The claimed
violation of federal right could have been urged as a
ground of liability in the state court action, as state
courts have concurrent jurisdiction with the federal
courts to enforce that right.
ie'k'k'k

61a

§26 Exceptions to
Concerning Splitting

the

General

Rule

(1) When any of the following circumstances exists,
the general rule of § 24 does not apply to extinguish
the claim, and part or all of the claim subsists as a
possible basis for a second action by the plaintiff
against the defendant:
(a) The parties have agreed in terms or in effect that
the plaintiff may split his claim, or the defendant has
acquiesced therein; or
(b) The court in the first action has expressly reserved
the plaintiffs right to maintain the second action; or
(c) The plaintiff was unable to rely on a certain theory
of the case or to seek a certain remedy or form of relief
in the first action because of the limitations on the
subject matter jurisdiction of the courts or restrictions
on their authority to entertain multiple theories or
demands for multiple remedies or forms of relief in a
single action, and the plaintiff desires in the second
action to rely on that theory or to seek that remedy or
form of relief; or
(d) The judgment in the first action was plainly
inconsistent
with
the
fair
and
equitable
implementation of a statutory or constitutional
scheme, or it is the sense of the scheme that the
plaintiff should be permitted to split his claim; or
(e) For reasons of substantive policy in a case
involving a continuing or recurrent wrong, the
plaintiff is given an option to sue once for the total
harm, both past and prospective, or to sue from time

62a
to time for the damages incurred to the date of suit,
and chooses the latter course; or

\

(f) It is clearly and convincingly shown that the
policies favoring preclusion of a second action are
overcome for an extraordinary reason, such as the
apparent invalidity of a continuing restraint or
condition having a vital relation to personal liberty or
the failure of the prior litigation to yield a coherent
disposition of the controversy.
(2) In any case described in (f) of Subsection (1), the
plaintiff is required to follow the procedure set forth
in §§ 78-82.
COMMENTS & ILLUSTRATIONS
Comment:

b. Express reservation by the court (Subsection (l)(b)).
It may appear in the course of an action that the
plaintiff is splitting a claim, but that there are special
reasons that justify his doing so, and accordingly that
the judgment in the action ought not to have the usual
consequences of extinguishing the entire claim; rather
the plaintiff should be left with an opportunity to
litigate in a second action that part of the claim which
he justifiably omitted from the first action. A
determination by the court that its judgment is
“without prejudice” (or words to that effect) to a
second action on the omitted part of the claim,
expressed in the judgment itself, or in the findings of
fact, conclusions of law, opinion, or similar record,
unless reversed or set aside, should ordinarily be

63a
given effect in the second action. Cf. § 20(l)(b), and
Comments f-i thereto.
For an instance where such special treatment of the
plaintiff may be called for, see § 25, Comment h
(possible reservation of action for restitution relief
after plaintiff fails in action for breach of contract).
It is emphasized that the mere refusal of the court in
the first action to allow an amendment of the
complaint to permit the plaintiff to introduce
additional material with respect to a claim, even
where the refusal of the amendment was urged by the
defendant, is not a reservation by the court within the
meaning of Clause (b). The plaintiffs ordinary
recourse against an incorrect refusal of an
amendment is direct attack by means of appeal from
an adverse judgment. See § 25(a), Comment b.
Where formal barriers existed against full
presentation of claim in first action (Subsection (l)(c)).
The general rule of § 24 is largely predicated on the
assumption that the jurisdiction in which the first
judgment was rendered was one which put no formal
barriers in the way of a litigant’s presenting to a court
in one action the entire claim including any theories
of recovery or demands for relief that might have been
available to him under applicable law. When such
formal barriers in fact existed and were operative
against a plaintiff in the first action, it is unfair to
preclude him from a second action in which he can
present those phases of the claim which he was
disabled from presenting in the first.
c.

The formal barriers referred to may stem from
limitations on the competency of the system of courts

I

64a
in which the first action was instituted, or from the
persistence in the system of courts of older modes of
procedure -- the forms of action or the separation of
law from equity or vestigial procedural doctrines
associated with either.
(1) Limitations on the jurisdiction of a system of courts.
A given transaction may result in possible liability
under the law of a state and alternatively under a
federal statute enforceable exclusively in a federal
court. When the plaintiff brings an action in the state
court, and judgment is rendered for the defendant, the
plaintiff is not barred from an action in the federal
court in which he may press his claim against the
same defendant under the federal statute.
See
Illustration 2. Compare § 25(1), Comment e.
Similarly, a given transaction may result in possible
liability under several theories of the law of a state,
but the state’s provisions for “long-arm” service of
process may, on the facts presented, limit judicial
jurisdiction over the defendant to the adjudication of
only one of those theories. For example, an out-ofstate defendant may be subject to a state’s jurisdiction
for the commission of a tort but not, on the particular
facts, for a breach of contract. In such a case, the
plaintiff, having lost his action in tort, should not be
precluded from pursuing a contract remedy in a state
in which jurisdiction over the defendant can be
obtained.
Illustration:
2. A Co. brings an action against B Co. in a state court
under a state antitrust law and loses on the merits. It
then commences an action in a federal court upon the

65a
same facts, charging violations of the federal antitrust
laws, of which the federal courts have exclusive
jurisdiction. The second action is not barred.
(2) Effect of the persistence of older modes of
procedure. Section 25, Comments i and l, describe a
series of situations in which a plaintiff in earlier times
was disabled from presenting his full claim in a single
action because of formal inhibitions imposed by the
historical division between “law” and “equity,” or the
forms of action, or related procedural modes. The
rules of merger and bar reflected those disabilities
and in various situations permitted a plaintiff to
present in a second action what he was disabled from
presenting in the first. In a modern system of
procedure such disabilities should no longer exist, and
the law as to merger and bar adjusts itself
correspondingly. Where, however, a jurisdiction has
not yet modernized its procedure, then, to the extent
that the disabilities continue, the older law of merger
and bar, as sketched in the cited Section and
Comments, would apply to judgments rendered by
those courts.
'k'k'k'k

66a
APPENDIX G
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF PUERTO RICO
LOURDES DEL ROSARIO FONTANILLASLOPEZ,
Plaintiff,
v.

MOREL BAUZA CARTAGENA & DAPENA LLC,
ETAL,
Defendants.
CIV. NO. 12-1206(PG)
FINAL JUDGMENT
WHEREFORE, in light of this Court’s Opinion and
Order of even date, it is hereby ORDERED AND
ADJUDGED that plaintiff Lourdes del Rosario
Fontanillas Lopez’s claims against all defendants
brought pursuant to Title VII of the Civil Rights Act
of 1964, 42 U.S.C.A. § 2000e et seq. be DISMISSED
WITH PREJUDICE. All supplemental state law
claims are hereby DISMISSED WITHOUT
PREJUDICE. Having dismissed all claims against
all defendants, this case is now CLOSED for all
statistical purposes.

IT IS SO ORDERED AND ADJUDGED.
In San Juan, Puerto Rico, February 7, 2014.
S/ JUAN M. PEREZ-GIMENEZ
JUAN M. PEREZ-GIMENEZ
U.S. DISTRICT JUDGE

67a
APPENDIX H
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF PUERTO RICO
LOURDES DEL ROSARIO FONTANILLASLOPEZ,
Plaintiff,
v.
MOREL BAUZA CARTAGENA & DAPENA LLC,
ET AL,
Defendants.
CIV. NO. 12-1206(PG)
OPINION AND ORDER
Vr -k *

The Plaintiff also invoked supplemental
jurisdiction over her state law claims under Law No.
100 of June 30, 1959 (“Law No. 100”), P.R. LAWS Ann.
tit. 29, § 146, et seq.; Law No. 17 of April 22, 1988
(“Law No. 17”), P.R. Laws Ann. tit. 29, § 155 et seq.]
Law No. 69 of July 6, 1985 (“Law No. 69”), P.R. Laws
Ann. tit. 29, § 1321 et seq.; Law No. 80 of May 30, 1976
(“Law No. 80”), P.R. LAWS Ann. tit. 29, § 185, et seq.;
and Article 1802 of the Puerto Rico Civil Code
(“Article 1802”), P.R. Laws Ann. tit. 31, § 5141.
* * *

B. Supplemental State Law Claims
The remainder of Plaintiffs claims are grounded
on Puerto Rico law. Since the federal claims have been
dismissed and no other grounds for jurisdiction exist,

68a
the court declines to exercise supplemental
jurisdiction over the Plaintiffs remaining state-law
claims. See Carnegie-Mellon Univ. v. Cohill, 484 U.S.
343, 349, 108 S.Ct. 614, 98 L.Ed.2d 720 (1988)
(explaining that the exercise of pendent jurisdiction is
a matter of the federal court’s discretion and not one
of plaintiffs rights); United Mine Workers v. Gibbs,
383 U.S. 715, 725, 86 S.Ct. 1130, 16 L.Ed.2d 218
(1966) (stating “if the federal claims are dismissed
before trial, ... the state law claims should be
dismissed as well.”). Accordingly, the Plaintiffs claims
brought pursuant to Commonwealth law are hereby
DISMISSED WITHOUT PREJUDICE.
IV. CONCLUSION
For the reasons stated above, this Court hereby
GRANTS IN PART Defendants’ motion for summary
judgment and thus, Plaintiffs claims under Title VII
are hereby DISMISSED WITH PREJUDICE. The
supplemental state-law claims, however, are hereby
DISMISSED WITHOUT PREJUDICE. Judgment
shall be entered accordingly.
IT IS SO ORDERED.
In San Juan, Puerto Rico, February 7, 2014.
S/ JUAN M. PEREZ-GIMENEZ
JUAN M. PEREZ-GIMENEZ
U.S. DISTRICT JUDGE

69a
[CERTIFIED TRANSLATION]
APPENDIX I
COMMONWEALTH OF PUERTO RICO
COURT OF FIRST INSTANCE
PONCE SUPERIOR PART
Lourdes Fontanillas Lopez CIVIL NO.
JPE 2017-0033 (604)
PLAINTIFF
RE:
V.
Wrongful Termination
Morell Bauza Cartagena
Retaliation
& Dapena LLC; Ramon
Discrimination
Enrique Dapena
Hostile Environment
Guerrero; Antonio Bauza Torts and Damages
Santos; Edgardo
Wages
Cartagena Santiago;
Breach of Contract
Pedro Antonio Morell
Summary Procedure
Losada; Mrs. Lourdes M.
Law 2
Vazquez; Unknown
Insurance Companies A,
(Filed CFI PONCE
B, C; Jane Doe; John Doe March 20, 2017
and Unknown Companies 4:25 PM)
X, Y,Z
(Note: There is a set of
initials next to the
DEFENDANTS
court filing date and
time stamp)
OPPOSITION TO “MOTION FOR SUMMARY
JUDGMENT AND REQUEST FOR
SANCTIONS” FILED BY THE DEFENDANTS
AND PETITION FOR DEFAULT ENTRY AND

70a
OTHER REMEDIES AND IMPOSITION OF
ATTORNEYS’ FEES FOR VEXATIOUSNESS TO
THE ABOVE-CAPTIONED DEFENDANTS
TO THE HONORABLE COURT:
Comes now the above-captioned plaintiff
represented by the undersigned attorney and before
this Court most respectfully states, alleges and prays:
*

7. Qn March 23, 2012, the plaintiff filed a
complaint against the defendants before the United
States District Court for the District of Puerto Rico
(“Federal Court”), Civil No. 12-1206 (PG) for conduct
that violates the provisions of Title VII of the Civil
Rights Act of 1964 and the Civil Rights Act of 1991.
The plaintiff requested, in addition, that the court
should exercise supplemental or pendent jurisdiction
over her claims under the laws of Puerto Rico, to wit:
Law No. 100 of June 30, 1959, Law No. 69 of July 6,
1985, Law No. 17 of April 22,1988, Law No. 80 of May
30, 1976; and Articles 1802 and 1803 of the Civil Code
of Puerto Rico.
8. After certain procedural incidents discussed
below, on February 7, 2014, after applying Local Rule
56 of the Federal Court in a harsh and inflexible
manner against plaintiff and in a loose manner in
favor of the defendants and ignoring a number of
allegations that were in controversy as well as the
evidence that sustained such allegations, the Federal
Court granted in part the summary judgment
requested by the defendants. The Federal Court
dismissed with prejudice the plaintiffs claims filed

71a
under Title VII against the defendant Morell Bauza
Cartagena & Dapena, LLC, but decline to assume
supplemental jurisdiction over the claims filed
under the Puerto Rico laws so it dismissed them
without prejudice. See Annexes 1 (judgment of the
Federal Court) and 2 (order of the Federal Court with
respect to the claims filed under Puerto Rico laws).

11.
* * *It should be emphasized that
interjurisdictionally some courts have refused to
grant claim preclusive effect when there are onerous
circumstances and to avoid an injustice.
Diaz
Maldonado v. Lacot. 123 DPR, 261, 275-276 (1989).
Likewise, as our Supreme Court has expressed, there
are circumstances in which it is not appropriate to
apply the doctrine of claim preclusion, particularly if,
in doing so, the ends of justice would be defeated or
distorted, absurd results would be produced, or when
considerations of public interest are raised. Mendez
v. Fundacion. 165 DPR 253, 268 (2005); Parrilla v.
Rodriguez. 163 DPR 263, 270 (2004); Banco de la
Vivienda v. Carlo Ortiz. 130 DPR 730 (1992).

13. Nor should it apply to the present case the
federal doctrine of issue preclusion since the
defendants waived this affirmative defense by not
raising or invoking it in their brief titled “Answer to
the Complaint, Motion for Summary Judgment and
Request for Sanctions”. In the case at hand, the
defendants raised solely and specifically the claim
preclusion defense. One cannot understand that
when a defendant raises solely and specifically the

72a
doctrine of claim preclusion, it is assumed that the
defendant also raised the aspect of issue preclusion.
This would go against the principles and
requirements that our Supreme Court has established
in order to successfully present an affirmative
defense. The defendants had the duty to raise all the
affirmative defenses they understood pertinent in
their first responsive pleading. In the case of Diaz
Avala v. E.L.A.. 153 DPR 675, 695 (2001) (quoted in
the case of Presidential Financial Corp. v. Transcaribe
Freight Corp., supra) our Supreme Court stated that
these affirmative defenses have to be raised in a clear,
explicit and specific manner. It further explained that
the affirmative defenses which the defendant did not
raise would be deemed waived. See also Rule 6.3 of
the Civil Procedure Rules of 2009 which incorporates
such expressions. Our Supreme Court has also
warned that the courts are prevented from raising the
affirmative defenses motu proprio when they have
been waived by the parties, except for the defense of
lack of subject-matter jurisdiction.
Presidential
Financial Corp. v. Transcaribe Freight Corn., supra.
14. Note that the issue preclusion and the claim­
splitting are distinguishable aspects of the doctrine of
claim preclusion, so like the latter, they constitute
independent affirmative defenses that must be
raised each in a clear, explicit and specific form
in the first responsive pleading ....As the Federal
Court of Appeals for the Fifth Circuit points out in the
case U S. v. Shanbaum. 10 F.3d 305 (5th Cir. 1994):
Defenses of collateral estoppel and res judicata are not
necessarily fungible concepts, and thus pleading one
of these defenses does not necessarily signify that
' '

•« :

*

73a

other has also been pleaded.” Presidential Financial
Corn, v. Transcaribe Freight Corn., supra. [Emphasis
supplied].
15. In the alternative, it is the plaintiffs
contention that the federal doctrine of issue
preclusion does not apply either to the instant case
since its mechanical and inflexible application would
lead to a miscarriage of justice taking into account the
procedural background described below.8 Further, it
is an established norm that the issue preclusion does
not apply to matters that could have been litigated
and determined, but were not. Its application is
limited to those issues that were indeed litigated and
adjudicated. Martinez Diaz v. ELA. supra (internal
citation omitted). In this sense, it should be noted
that the laws of Puerto Rico are completely different
from the federal in terms of requirements, burdens of
proof and remedies. The legislation of Puerto Rico on
discrimination and retaliation requires from the
employer-defendant the presentation of more vigorous
proof to rebut the presumption of illegality. See Velez
v. Thermo King of Puerto Rico. Inc.. 585 F.3d 441, n.7
(1st Cir. 2009) (explaining that the burden of proof
under Law 100 is more favorable than the federal
counterpart). The way in which Title VII distributes
the burden of proof was a material element that
8 The federal forums consider whether, indeed, the party against
whom it was invoked had a fair opportunity to htigate the issue
that is sought to be precluded; in addition, to pondering whether
the mechanical application of the doctrine would lead to a failure
of justice. Wright, Miller & Cooper, Federal Practice and
Procedure, West Group, 2d ed., Vol. 18B’ sec. 4416, pp. 390-393
(quoted in Martinez Diaz v. ELA. supra).

74a

provoked the dismissal of the federal question as well
as the conduct of the federal judge (as described
below) and the disparate manner in which he applied
the Local Rule 56 of the Federal Court between the
plaintiff and the defendants. It should also be noted
that the dismissal of the federal claim under Title VII
against the employer does not have collateral estoppel
effect in the claim against the individuals under Laws
100, 69 and 17 (which allow to impose personal or
individual liability to the chief, officer, administrator,
supervisor, agent or representative of the employer)
nor does it have the effect of preventing claims under
Law 80, a statute which solely prohibits wrongful
The Wrongful Termination Act
termination.
establishes an important presumption against the
employer under which the termination is considered
unjustified until the employer demonstrates through
preponderance of the evidence that there is a just
cause. Rivera v. Pan Pepin. 161 DPR 681, 690 (2004);
Diaz v. Wvndham Hotel Corn.. 155 DPR 364, 378
(2001). See Rivera Almodovar v. Instituto
Socioeconomico Comunitario. Inc.. 2014 TA 2129
(Judgment of the Puerto Rico Court of Appeals issued
on June 13, 2014).9 In other words, the burden of
9 See note 6 at the end of the page, supra.
(Translator Note: Footnote 6 reads as follows: To the case at
hand, the rule of law in force prior to the approval of Law 4 of
January 26, 2017 (“Labor Transformation and Flexibility Act”)
applies because it is based on facts, situations and events that
occurred before the effectiveness of said law and which
application the Legislative Assembly expressly determined that
it would be prospective. Article 1.2 of said Act expressly provides
for its, prospective application. Said article reads: “[e]mployees
hired before the effective date of this Act shall continue to enjoy

75a

proof to establish that the termination was justified
falls on the employer. There is no collateral estoppel
either with respect to the claims for post-employment
retaliation, wages, torts and damages under Articles
1802 and 1803, and damages for breach of contract.
None of the above matters has been litigated and
adjudicated.
16. Regarding the procedural background of the
federal lawsuit, we understand that the judgment
issued by the federal forum has vices of nullity since
there are sufficient facts that tend to indicate that
plaintiffs right of due process of law was violated, that
is, an impartial and fair process and her “day in
court”. We explain.
a. From the case file at the federal level, it emerges
that the federal judge held ex parte communications
with the legal representation of the defendants when
several motions were pending to be resolved,
including the motion for summary judgment filed by
the defendants. Such actions cast doubt on the
impartiality of the judge at least in appearance. Sec
Annexes 2-A (Minutes of Conference Call of October
7, 2013 — “Docket 88”) and 2-B (Time Entry of Atty.
Sanfilippo of October 7, 2013).
b. According to the Minutes of the Pre-Trial
Conference held on September 24, 2013, the federal
judge, without reading the opposition to the motion for
summary judgment filed by the then legal
representative of the plaintiff and having only made a
“perfunctory review” of the motion for summary
the same rights and benefits they enjoyed before
See also
Opinion of Secretary of Justice dated January 24, 201[7] (sic).

76a

judgment filed by the defendants, made some
statements that denoted a predisposition of the court
not only to dismiss the case, but more significantly
still, to impose substantial attorneys’ fees to the
plaintiff, this notwithstanding that the foregoing is
the exception to the federal law which requires a more
rigorous standard of analysis and evaluation where
all the evidence known to the plaintiff (regardless of
whether it is admissible or considered by the Court for
the purpose of issuing judgment summarily) must be
considered and satisfying certain factors and where
the burden of proof which is very difficult to satisfy
also falls on the defendants. Certainly, at that
moment the court was not in a position to make such
statements, much less with regard to the imposition
of attorneys’ fees for which not even the defendants
had fulfilled their burden of proof. See Annex 2-C
(Minutes of Pre-Trial Conference held on September
24, 2013 - “Docket 84”).
c. Even worse, the Federal Court in its
determination to grant substantial attorneys’ fees to
the defendants (as well as the Federal Court of
Appeals for the First Circuit in affirming) should have
considered the judicial precedent established by the
United States Supreme Court in the case Fox v. Vice.
131 S. Ct. 2205 (2011) as part of its analysis.10 This

10 The value of judicial precedent responds to considerations of
the stability and certainty that the Law should have, in the spirit
of providing equal justice. See, e.g., Karl N. Llewellyn, “Case
Law”, in Encyclopedia of the Social Sciences 249, Vol. III-IV
(1930), quoted in the concurring and dissenting Opinion issued
by Associated Judge Mrs. Rodriguez Rodriguez in the case

77a

case states that the defendants can only receive that
portion of the attorneys’ fees that would not have been
incurred but for the “frivolous” claims. In other words,
if the defendants had incurred such fees regardless to
defend themselves against the other claims (as would
be the case of claims under state or local laws that
were dismissed without prejudice by the federal
court), the court cannot transfer such expenses to the
plaintiff. See Annexes 2-D and 2-E (Fox v. Vice case
and Alvarado Torres v. Arcos Dorados case, Civil No.
11-1214 (JAF), where the Federal Court applies the
norm of Fox v. Vice). This case, had it been considered
by the Federal Court, would have prevented the
granting of attorneys’ fees to the above-captioned
defendants and avoided unfairly placing the plaintiff
in a precarious financial situation. It arises from the
very arguments presented, the admitted facts at this
stage of the procedures and the admissible evidence
that has been annexed to this motion that they are
sufficient to sustain the validity of the causes of action
filed against the defendants, contrary to the
defendants’ arguments.
d. On the other hand, in the factual findings made
by the Federal Court and on which it based its
judgment, the federal judge applied the Local Rule 56
of the Federal Court in a disparate manner against
the plaintiff which resulted in the federal judge
ignoring a number of allegations that were actually
and in good faith in controversy despite being
accompanied by their respective reference to the
paragraphs or pages of affidavits or other admissible
Rodriguez Ramos v Otrris v. Hospital Dr. Susoni. Inc, v Otros.
2012 TSPR 150, 186 DPR__ (2012).

78a

evidence where they were established. The federal
judge ignored the evidence sustaining those
allegations. He also ignored witnesses (including
clients) that the plaintiff had announced as witnesses
in her favor and incurred in a series of errors in order
to issue judgment summarily. In this sense, it should
be noted that due process of law does not tolerate
procedural arbitrariness, even in the civil sphere.11 In
addition, the judgment summarily entered by the
federal judge is based on factual findings that were
the result of a false representation of facts committed
by the defendants as well as by one of their witnesses.
We understand that the judgment of the federal forum
was obtained through fraud. See Annexes 2-F
(Motion for Reconsideration (“Docket 115”) filed by the
plaintiff before the federal forum and stricken from
the record (“docket”) by the federal judge by denying
the filed motion for leave to present such brief in
excess of the pages permitted by the Local Rule 7(D)
of the Federal Court, this despite the fact that the
Federal Court had previously allowed the defendants
to file briefs in excess of the permitted pages or
without requesting prior authorization to present the
same) and 2-G (Motion for Relief from Judgment and
Memorandum of Law filed by the plaintiff before the
Federal Court and also stricken from the record
(“docket”) by the federal judge by denying the filed
motion for leave to present such brief in excess of the
pages allowed by the Local Rule 7(D) of the Federal
court). These actions by the federal judge caused the
Federal Court of Appeals for the First Circuit to issue
11 Ernesto L. Chiesa, Tratado de Derecho Probatorio. Volume II,
Publicaciones JTS, 2000, p. 1104.

79a

an order to show cause by which the appeal filed by
the plaintiff should not be dismissed for being filed out
of term. See Annex 2-H (orders of the Federal Court
of Appeals for the First Circuit issued on June 12,
2015 and September 18, 2015, respectively).
e. The defendants never proved by preponderance
of evidence that the termination was justified. They
solely limited themselves to produce a few reasons for
which the plaintiff presented in addition to her
statements, extrinsic documentary evidence that
clearly controverted those reasons adduced.
Nevertheless, the federal forum ignored all the
evidence that was detrimental to the defendants and
contradicted their arguments and allegations.
f. The judgment entered by the federal forum was
not issued as a result of a plenary trial but summarily.
In the case at the federal level there was never a
plenary trial nor was the plaintiff provided the
opportunity to have an oral hearing at the federal
appellate level.12
-t> -

12 Our Supreme Court has firmly held the clear judicial pubhc
policy that cases should be heard on the merits. Datiz v.
Hospital Episcopal. 163 DPR 10, 20 (2004); Mercado v. Panthers
Military Soc.. Inc.. 125 DPR 98, 105 (1990). As a corollary to this
policy, it has reiterated that there is a transcendental interest
in every litigant having his/her day in court. In addition, it
has expressed that the procedures have no life of their own or
their own purpose, their raison d'etre is to assure the parties the
compliance with the due process of law in achieving before the
courts the substantive law claimed by them. (Piazza Velez v. Isla
del Rio. 158 DPR 440 (2003), dissenting opinion by Judge
Naveira de Rodon).

80a
17. Based on the foregoing, it would be a failure of
justice to automatically apply the doctrine of issue
preclusion. It should be noted that our Supreme
Court has refused to apply the res judicata doctrine
with respect to a previous judgment which is null (i.e.,
where the due process of law has not been observed);
a judgment of the Court of First Instance whose
review was attempted but could not be achieved for
reasons beyond the will of the appellant; a previous
judgment that was obtained through fraud or that
which defeats the ends of justice; and cases that are
permeated by public policy considerations. See Vidal
v. Monagas, 66 DPR 622 (1946); Riera v. Piza. 85 DPR
268, 274 (1962); Suarez Fuentes v. Tribunal Superior.
88 DPR 136 (1963); Feliciano Ruiz v. Alfonso Develop.
Corn.. 96 DPR 108, 114 (1968); Pagan Hernandez v.
U.P.R.. 107 DPR 720, 736 (1978); Millan v. Caribe
Motors Corn.. 83 DPR 494, 509 (1961) (quoted in
Partido Nuevo Progresista v. De Castro Font. 2007
TSPR 230, 172 DPR__ (2007)).
18. Finally, our Supreme Court also explained in
Martinez Diaz v. ELA, supra, that both aspects of the
res judicata doctrine do not apply in an absolute or
inflexible -way. The courts have been reluctant to
apply the res judicata doctrine in any of its two
aspects when it would have the effect of defeating the
ends of justice and, especially, when the controversy
involves matters of high public interest. See Parrilia
v. Rodriguez. 163 DPR 263, 271 (2004); Ramos
Gonzalez v. Felix Medina. 121 DPR 312, 341-42
(1988); Perez v. Bauza. 83 DPR 220, 226 (1961).
Certainly, the case at hand is permeated by
considerations of high public interest and values of a
« . . .

.

.

I

.

81a
constitutional , .nature,
Both
gender-based
discrimination and sexual harassment have been
considered by our Supreme Court to be matters vested
with a high public interest. On the other hand, the
right to privacy, to equality and dignity of the human
being as well as the right to protection of law against
abusive attacks on one’s honor, reputation and private
and family life are rights enshrined by our
Constitution arid as such are also vested with a high
public interest.
The rights to dignity, personal
integrity and privacy are fundamental constitutional
rights that enjoy the highest hierarchy and constitute
a crucial dimension in human rights.
Garcia
Benavente v. Alioma Lumber. Inc.. 2004T.S!P.R. 125,
162 D.P.R.
(2004). “The discrimination based on
race, color, sex, age, national origin, political and the
reprisals are opposed to the democratic process and
are totally contrary to the economic development of
every society, because it marginalized an entire sector
of the population from the economic process by
reasons totally unrelated to the behavior of the
market. An essential element that differentiates
democracy from the authoritarian regime is the
existence of an independent judiciary to which
citizens can resort to vindicate their rights when they
are victims of discrimination. Consequently, the
protection of these rights in the labor and social
sphere implies an active behavior of the judiciary in
order to guarantee to all the people a situation of
certainty in their area of work:
that the
discrimination and the reprisals do not mark their
lives with impunity.” Resolution of the Court of First
Instance, San Juan Part, issued on October 25, 2013
in the case Maggie Correa v. McConnell Valdes.

82a
KPE2012-1204. In Puerto Rico, “it has been public
policy to protect workers as much as possible, thus
creating a climate of worker-employer harmony
indispensable for the progress and well-being of all
sectors of the community.” Lopez Santos v. Tribunal
Superior. 99 DPR 325, 330 (1970); Whittenburg v.
Iglesia Catolica, 182 DPR 937 (2011).
19. As a matter of fact and law, the request for'
dismissal filed by the defendants is improper. The
judgment of the federal forum does not have claim
preclusive effect over the above-captioned claims filed
under the laws of Puerto Rico nor the doctrine of issue
preclusion should apply for the foregoing reasons.
Thus, it is also requested from this Honorable Court
that under Rule 10.5 of the Civil Procedure all text
making reference to the findings of the Federal Court
in the brief (including its annexes) filed by the
defendants on February 28, 2017 be stricken as
irrelevant matter.
CERTIFICATE OF TRANSLATION INTO
ENGLISH
I, Pura M. Reyes Gilestra, PhD, of legal age,
married, a resident of San Juan, Puerto Rico, a
professional translator/interpreter/editor, certified
by the ATA (#244688) and the NAJIT (#3449), to
the best of my abilities, do HEREBY CERTIFY that
the foregoing is a precise and true translation from
its original document in Spanish which I have seen.
In San Juan, Puerto Rico, today, June 06, 2019.

Pura M. Reyes Gilestra
Editor/Interpreter/Translator

83a
[CERTIFIED TRANSLATION]
APPENDIX J
COMMONWEALTH OF PUERTO RICO
GENERAL COURT OF JUSTICE
COURT OF APPEALS
JUDICIAL REGION OF PONCE
LOURDES FONTANILLAS
LOPEZ
Plaintiff-Appellant
V.
MORELL BAUZA
CARTAGENA & DAPENA
LLC; RAMON ENRIQUE
DAPENA GUERRERO;
ANTONIO BAUZA
SANTOS; EDGARDO
CARTAGENA SANTIAGO;
PEDRO ANTONIO
MORELL LOSADA; MRS.
LOURDES M. VAZQUEZ;
UNKNOWN INSURANCE
COMPANIES A, B, C; JANE
DOE; JOHN DOE AND
UNKNOWN COMPANIES
X, Y, Z
Defendants-Appellees

x...

KLAN201701134
Civil Appeal from
the Court of First
Instance
Ponce Part
CFI Civil No.: JPE2017-0033 (604)
Re:
WRONGFUL
TERMINATION,
RETALIATION,
DISCRIMINATION,
HOSTILE WORK
ENVIRONMENT,
TORTS AND
DAMAGES,
WAGES, BREACH
OF CONTRACT
AND SUMMARY
PROCEDURE,
LAW 2

i

84a

(FILED CLERK’S OFFICE
COURT OF APPEALS
2017 AUG 14 PM 2:51)
APPEAL

The Court of First Instance (hereinafter, “CFI”),
, deprived plaintiff of her claims and her right of
due process of law and be heard in a plenary trial by
dismissing with prejudice all her claims as claim
preclusion
’k'k’k

Section 3 of Law 2, in its relevant part, provides
that “[defendant shall answer in one sole responsive
plea in which he shall include all his defenses and
objections, it being understood that he waives all
defenses and objections not embodied in said plea....
In no case prosecuted under [the sections] of this title
may the complainant workman or employee be
countersued or countercharged for any cause.”
[Emphasis supplied]. Rule 10.2 of the RPC3 [Rules of
Civil Procedure], for its part, provides that “[e]very
defense, in law or fact, to a claim for relief shall be
asserted in the responsive pleading thereto.”
[Emphasis supplied]. Likewise, Rule 6.2(a) of the
RPC provides that “the party to whom it corresponds
to present a responsive allegation shall admit or deny
3 Section 3 of Law 2 provides that in the cases prosecuted under
Law 2, “the Rules of Civil Procedure shall govern insofar as they
are not in conflict with the specific provisions ...of Law 2 or with
the summary nature of the procedure hereby established.”

85a

the averments upon which the adverse party relies
and shall state his defenses to each claim asserted,
along with the relation of demonstrative facts that
assist such defenses.” [Emphasis supplied]. Under
Rule 5.1 of the RPC, which establishes the pleadings
allowed in our civil procedure code, the responsive
allegation with respect to the above-captioned
complaint would be the “answer to the complaint”. A
motion for' dismissal or summary judgment is not a
pleading pursuant to Rule 5.1 of the RPC.
In the catalogue of affirmative defenses of Annex 8
of their brief titled “Answer to the Complaint, Motion
for Summary Judgment and Request for Sanctions”4,
the defendants did not raise the affirmative defense
of collateral estoppel or issue preclusion. (Ap. B, 314316). They also did not invoke said affirmative
defense in the 82 pages of the main document. The
defendants specifically and solely raised the defense
of claim preclusion and their argumentation was
limited to the ruling in the case Santiago Leon v.
Municinio de San Juan, supra, which only discusses
the federal doctrine of claim preclusion. (Ap. B, 44125). Therefore, the defendants waived the
affirmative defense of collateral estoppel or
issue preclusion. See Section 3 of Law 2, cited
above. One cannot understand that when a
defendant raises specifically and solely the
defense of claim preclusion, it is assumed that
he also raised the aspect of collateral estoppel.
4 This Honorable Court has before its consideration the question
of whether what was presented by the defendants meet the form
requirements of a responsive pleading imposed by the Law and
the RPC.

86a

This would go against the principles and
requirements that our Supreme Court has established
in order to successfully present an affirmative
defense. Even though the collateral estoppel is an
aspect of the doctrine of res judicata, this is a distinct
affirmative defense. Its requirements are different.
The defendants had the duty to raise all the
affirmative defenses they understood pertinent in
their first responsive pleading in a clear, explicit and
specific manner. This entails that they cannot be
alleged in general terms, but that the party must be
specific at the time of presenting the affirmative
defense and in accordance with Rule 6.2 of the RPC, it
must be accompanied by a relation of facts that
underlie it. H.R. Inc, v. Visseno & Diez Construction
(2014). In
Corn., et al.. 2014 TSPR 39, 190 DPR
the case of Diaz Ayala v. E.L.A.. 153 DPR 675, 695
(2001) (quoted in the case of Presidential Financial
Corn, v. Transcaribe Freight Corn.. 2012 TSPR 122,
(2012)) our Supreme Court stated that
186 DPR
these affirmative defenses must be asserted in a clear,
explicit and specific manner. It further explained that
the affirmative defenses which the defendant did not
raise would be deemed waived. See Rule 6.3 of the
RPC incorporating such expressions. Prof. Rafael
Hernandez Colon explains that the affirmative
defenses have to be stated by asserting the facts that
underpin them. It means that if the affirmative
defense is merely alleged, the allegation is insufficient
and it is understood that it was waived.5
5 R. Hernandez Colon, Derecho Procesal Civil. 5th ed., San Juan,
Lexisnexis, 2010, p. 251 (quoted in Presidential Financial Corp.
v. Transcaribe Freight Corn., supra).

87a
Note that “collateral estoppel and claim-splitting
are distinguishable aspects of the doctrine of res
judicata, so like the latter, they constitute
independent affirmative defenses that must be
raised each in a clear, explicit and specific
manner in the first responsive pleading .... As
the Federal Court of Appeals for the Fifth Circuit
points out in the case U.S. v. Shanbaum. 10 F.3d 305
(5th Cir. 1994): Defenses of collateral estoppel and res
judicata are not necessarily fungible concepts, and
thus pleading one of these defenses does not
necessarily signify that other has also been pleaded.”
Presidential Financial Corn, v. Transcaribe Freight
Corp.. supra. [Emphasis supplied]. The defendants
did not raise the affirmative defense of collateral
estoppel or issue preclusion; they limited themselves
to solely raise the affirmative defense of claim
preclusion so they waived that affirmative defense.
By not raising that defense and waiving it, the
defendants much less discharged their burden of
proving that all the elements of the federal doctrine
collateral estoppel or issue preclusion were fulfilled,
to wit: (1) that the issue or matter sought to be
precluded in the subsequent action is the same that
was decided in the earlier action; (2) that that issue
was actually litigated: (3) that the issue was
determined by a valid, final and firm judgment; and
(4) that the determination was essential to the
judgment rendered. Martinez Diaz v. ELA, 2011
TSPR 116, 182 DPR 580 (2011) (internal citations
omitted). [Emphasis supplied]. The burden of proof
fell on the defendants. Note that as the Federal Court
assumed jurisdiction of the plaintiffs claims under

88a

Title VII against the defendant MBCD under the
federal question doctrine, the analysis of the effect of
the Federal Court’s judgment to the instant ease must
be made under federal law.6
Notwithstanding the foregoing and of having the
plaintiff brought to the attention of the CFI all these
arguments, the CFI in rendering its dismissal
judgment: (1) ignored the plaintiffs aforesaid
approaches and (2) sua sponte ■. raised and considered
the aspect of issue preclusion under the federal rules
(in particular, the above-mentioned first element or
criterion of such doctrine); such action was improper
and an abuse of discretion. Our Supreme Court has
warned that the courts are prevented from raising the
affirmative defenses motu proprio when they have
been waived by the parties, except for the defense of
lack of subject-matter jurisdiction.
Presidential
Financial Corp. v. Transcaribe Freight Corn., supra.
In our legal system, the rights must be asserted; it is
inappropriate for a court to serve as an advocate of the
defendant.7 The CFI should have limited its
analysis on whether the federal doctrine of
claim preclusion applied to the instant case. By
6 Semtek Int’l Inc. Lockheed Martin Corp.. 531 U.S. 497, 507-508
(2001). (“The preclusive effect of a federal-court judgment is
determined by federal common law”). See also Martinez Diaz v.
ELA. supra, quoting with approval: Blonder-Tongue Lab, v.
Univ. Of Ill. Found.. 402 U.S. 313, 325 (1971); Charles Alan
Wright, Arthur R. Miller & Edward H. Cooper, Federal Practice
and Procedure. West Group, 2d ed., Vol. 18B, sec. 4468.
7 J. A. Cuevas Segarra, Tratado de derecho procesal civil. 2d ed.,
V. II, San Juan, Publicaciones JTS, 2011, p. 413. See Alamo v.
Sunermercado Grande. Inc.. 158 D.P.R. 93, 105, n. 10 (2002).

89a
not doing so,' the CFI abused its discretion and
committed a manifest error of law because the
principles and requirements that our Supreme Court
has established in order to successfully present an
affirmative defense, are being violated. See, Rule 6.3
of the RPC [Rules of Civil Procedure]; Diaz Ayala v.
E.L.A.. 153 D.P.R. 675, 695 (2001). It is also contrary
to law since Section 3 of Law 2 prohibits it. Likewise,
the plaintiffs right to a due process of law (i.e., her
right to be heard) is being violated.
On the other hand, in its interpretation and
application of the federal doctrine of claim preclusion
to the instant case, the CFI also erred in law since in
said analysis it should have considered the exceptions
that the doctrine of res judicata has at the federal
level, as discussed by our Supreme Court in Martinez
Diaz v. ELA, supra. Specifically, the CFI should have
considered the exception under the federal rules that
allows to re-litigate a cause of action or part of it
when the court was unable to address the
totality of the cause of action because it lacked
jurisdiction or authority to address the matter”.
(Emphasis in original). Martinez Diaz v. ELA. supra,
citing with approval Restatement (Second) of
Judgments, sec. 26 (1982).
The CFI without any reason or justification left out
the ruling of our Supreme Court in Martinez Diaz v.
ELA. supra (internal citations omitted), to the effect
of “allowing a second suit when in the suit before the
federal forum all the claims of the plaintiff could not
be accumulated for reason of formal or jurisdictional
barriers.” This exception applies, if the federal
forum refuses to assume
supplemental

90a
jurisdiction, 28 U.S.C. §1367, as occurred in the
instant case. It is justified since the doctrine of res
judicata is predicated on the assumption that the first
court could entertain all the legal theories that justify
the grant of a relief and stem from the same cause of
action. It would be unfair to penalize a party
who, diligently, tried to present the entire claim
but procedural barriers prevented him/her,
applying in the second action the doctrine of
claim preclusion. Martinez Diaz v. ELA. supra
(internal citations omitted, emphasis supplied). It is
worth noting also that interjurisdictionally some
courts have refused to grant it claim preclusive effect
when there are onerous circumstances and to avoid an
injustice. Diaz Maldonado v. Lacot, 123 DPR 261,
275-276 (1989). Likewise, as our Supreme Court has
expressed, there are circumstances in which it is not
appropriate to apply the doctrine of claim preclusion,
particularly if, in doing so, the ends of justice would
be defeated or distorted, absurd results would be
produced, or when considerations of public interest
are raised. Mendez v. Fundacion. 165 DPR 253, 268
(2005); Parrilla v. Rodriguez. 163 DPR 263, 270
(2004); Banco de la Vivienda v. Carlo Ortiz. 130 DPR
730 (1992).
In the case at hand, there is no controversy that in
the judgment of the federal forum of February 7, 2014,
the Federal Court expressly declined to assume
supplemental jurisdiction over the claims filed under
the laws of Puerto Rico, dismissing the same without
prejudice. (Ap. E, 431-432). Contrary to what

91a

happened in Santiago Leon v. Mun. San Juan, supra8,
the plaintiff diligently tried to file all of her federal
and Puerto Rico-law causes of action in a single suit
but the Federal Court expressly declined to assume
supplemental jurisdiction over the claims filed under
the laws of Puerto Rico despite of the plaintiff having
requested so. The reason for which the claims under
the laws of Puerto Rico were not entertained was out
of the control of the plaintiff. Therefore, the doctrine
of res judicata or “claim preclusion” is not
applicable to the instant case under the exception
that exists when there are jurisdictional or procedural
barriers that prevent including in a single suit all the
legal theories or remedies available to a cause of
action. Note that the causes of action under the
laws of Puerto Rico that the Federal Court had
before its consideration or could have had
before its consideration were not heard nor
could be heard on the merits. This is so because
the Federal Court does not have jurisdiction to
entertain state or local issues that are not tied to a
federal question, and this was expressly stated by the
Federal Court when it declared itself without
jurisdiction and dismissed without prejudice any
state or local issue. Under these circumstances, it
8 In Santiago Leon v. Mun. San Juan, supra, the plaintiff split
her causes of action and filed in parallel her claims in different
courts of concurrent jurisdiction. She also did not comply with
multiple orders of the local forum and assumed a conduct of
disinterest in the management of her claims before the Federal
District Court. Due to such particular circumstances of the case,
the Supreme Court understood that it was not justified to exempt
the plaintiff from the interjurisdictional application of the
federal doctrine of claim preclusion.

92a

would be unfair to apply the federal doctrine of claim
preclusion in this case where the complainant
attempted to file claims invoking supplemental
jurisdiction, but without success because procedural
obstacles - the dismissal of the federal causes of action
- prevented her from doing so. In other words,
because the claims filed under the laws of
Puerto Rico were dismissed without prejudice
for lack of jurisdiction, it cannot be considered
that there was an adjudication on the merits so
the doctrine of claim preclusion should not be
applied.9
See Martinez Diaz v. ELA, supra.
Therefore, it was improper the dismissal with
prejudice of the above-captioned complaint based on
the application of the federal doctrine of claim
preclusion or “cosa juzgada”, as requested by the
defendants. See also Rivera Almodovar v. Institute
Socioeconomico Comunitario. Inc.. 2014 TA 2129
(Judgment of the Court of Appeals of Puerto Rico
issued on June 13, 2014, case KLCE201400617).
Thus, the CFI erred in interpreting and applying the
federal doctrine of claim preclusion or “cosa juzgada”
to the case at hand and by dismissing with prejudice
the above-captioned complaint as claim preclusion.

9 See Audette v. International Longshoremen’s Union. C.A. 9th,
1999, 195 F. 3d 1107, 1111 n. 1 (“A decision refusing to assert
supplemental jurisdiction over state-law claims joined with
federal-question claims and dismissing the state claims without
prejudice was not a judgment on the merits and did not support
res judicata”), cited in Charles Alan Wright, Arthur R. Miller &
Edward H. Cooper, Federal Practice and Procedure. West Group,
2d ed., Vol. 18A, sec. 4436.

"A

93a

It should also be noted that with respect to claims
in the above-captioned complaint predicated on events
or facts occurred after the filing date of the federal
complaint, the federal rule is that the doctrine of claim
preclusion or “cosa juzgada” does not prevent them.10
In Dawkins v. Nabisco. Inc.. 549 F.2d 396, 397 (5th
Cir. 1977), quoted by the Federal Court of Appeals for
the First Circuit in the case Cruz Berrios v. Gonzalez
Rosario. 630 F.3d 7 (2010), it was determined that
under federal claim preclusion principles a dismissal
of a Title VII retaliation claim could not preclude
claims of subsequent retaliation because otherwise a
company that had once won a suit alleging retaliation
for participation in Title VII proceedings would be free
to retaliate at will against the earlier plaintiff without
fear of being held accountable for its actions. [...].
Also, in the case of Morgan v. Covington Township.
648 F.3d 172, 178 (3d. Cir. 2011), the Third Circuit
adopted the rule that the res judicata doctrine does
not preclude claims that are predicated on events
post-dating the filing of the initial complaint. Thus,
as an additional basis, it was improper the dismissal
of the plaintiffs claims for post-employment
retaliation and torts and damages, predicated on facts
or events subsequent to the federal complaint, on
grounds of claim preclusion.
Although as explained earlier, the defendants
waived the affirmative defense of collateral estoppel
or “issue preclusion” for not timely raising it and,
thus, did not comply with their burden of
demonstrating that each one of the requirements of
10 See Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, op. cit.. 3d ed., Vol. 18, sec. 4409.

94a

said doctrine was configured11, we bring to the
attention of this Court as a precautionary measure
that in this case the requirements of said doctrine are
not met either for several reasons. Let’s see.
Under the federal rules, the doctrine of issue
preclusion (collateral estoppel) has its exceptions
and limitations. It is an established rule that the
“issue preclusion” does not apply to matters that
could have been litigated and determined in the first
lawsuit, but they were not. Its application is limited
to those issues that were actually litigated and
adjudicated. Martinez Diaz v. ELA. supra, (quoting
United States v. International Bldg.. 345 U.S. 502,
504-05 (1953)). And even though an issue was indeed
litigated and adjudicated in the previous lawsuit, the
determination must be essential to the judgment
entered in that lawsuit. If the determination was not
necessary to the judgment entered, then the doctrine
of issue preclusion does not apply. The determination
is necessary to the judgment only if it is essential,
material, necessary and of vital importance.12
11 See Commercial Associates v. Tilcon Gammino. Inc., infra,
cited in Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, on. cit.. 3d ed., Vol. 18, sec. 4420 (“It is up to the party
invoking issue preclusion to establish the prerequisites.
Preclusion failed in this case for failure to show that the findings
relied upon were necessary to the earlier judgment”).
12 See In Re Microsoft Corn. Antitrust Litigation. 355 F.3d 322,
325-328 (4th Cir. 2004) (“A finding is necessary to the judgment
only if it is ‘critical, necessary, essential and material’. A finding
that is merely consistent, but not necessary or essential, does not
suffice. Appellate review likely would be evaded as to a merely
supportive finding”); Commercial Associates v. Tilcon Gammino
Inc.. 998 F.2d 1092,1097 (1st Cir. 1993) (“The reasons for limiting

95a

Therefore, the doctrine of issue preclusion does not
apply to determinations that are collateral or
incidental to the judgment rendered. Likewise, the
federal forums consider whether, indeed, the party
against whom it is invoked had a fair opportunity to
litigate the matter that is sought to be precluded; in
addition to whether the mechanical application of the
doctrine would lead to a failure of justice. Martinez
Diaz v. ELA, supra (quoting Wright, Miller & Cooper,
op. cit., sec. 4416, pp. 390-93).
It is also an established rule in the federal sphere
that the doctrine of issue preclusion does not apply
when there is difference in the nature of the
proceedings followed or when there are differences
in the burden of proof or standards of evidence.
See, Restatement (Second) of Judgments, sec. 28(4)
(1982) which provides the following: “Although an
issue is actually litigated and determined by a valid
and final judgment, and the determination is
essential to the judgment, relitigation of the issue in
a subsequent action between the parties is not
precluded in the following circumstances; (1) The
party against whom preclusion is sought could not, as
a matter of law, have obtained review of the judgment
in the initial action; or (2) [...]; or (3) A new
preclusion to issues necessarily decided in an earlier action ‘are
that a collateral issue, although it may be the subject of a finding,
is less likely to receive close judicial attention and the parties
may well have only hmited incentive to litigate the issue fully
since it is not determinative. ... Under these circumstances,
extending the force of the unnecessary finding into a different
case is deemed too risky and possibly unfair.’”); both cases cited
in Charles Alan Wright, Arthur R. Miller & Edward H. Cooper,
on. cit.. 3d ed., Vol. 18, sec. 4421.

96a
determination of the issue is warranted by differences
in the quality or extensiveness of the procedures
followed in the two courts or by factors relating to the
allocation of jurisdiction between them; or (4) The
party against whom preclusion is sought had a
significantly heavier burden of persuasion with
respect to the issue in the initial action than in
the subsequent action; the burden has shifted to
his adversary; or the adversary has a
significantly heavier burden than he had in the
first action; or (5) There is a clear and convincing
need for a new determination of the issue (a) because
of the potential adverse impact of the determination
on the public interest
(b) because it was not
sufficiently foreseeable at the time of the initial action
that the issue would arise in the context of a
subsequent action, or (c) because the party sought to
be precluded, as a result of the conduct of his
adversary or other special circumstances, did not have
an adequate opportunity ...to obtain a full and fair
adjudication in the initial action.” The authors
Wright, Miller & Kane explain that the doctrine of
“issue preclusion” is defeated by changes in the
standard of persuasion required o when the burden of
proof shifts to the other party as well as when there
are substantial differences in the admissibility of
evidence:
“Issue preclusion, ..., may be defeated by shifts
in the burden of persuasion or by changes in the
degree of persuasion required. In like fashion,
it may be that substantial differences in the
admissibility of evidence should defeat
preclusion.
,

i. *

97a
...In a more exotic setting, the same principle
has been applied in a setting that has been
overtaken by changes in the applicable proof
standards to rule that failure to carry the
burden of proving an issue by the
preponderance of the evidence does not
preclude a later attempt to prove the same
issue according to a “less stringent standard of
persuasion” that cannot be described by any
“legal label.” The differences in gradations of
civil standards of proof are more subtle than the
shift from the reasonable-doubt standard to the
preponderance standard, but the same basic
principle continues to apply.
Shifts in allocation of the burden of persuasion
generally should follow the same principle as
changes in the decree of persuasion. Failure of
one party to carry the burden of persuasion on
an issue should not establish the issue in favor
of an adversary who otherwise would have the
burden of persuasion on that issue in later
litigation.
The rule that a shift in the burden of persuasion
defeats preclusion should apply even if the first
action went beyond a negative finding that the
burden was not carried.
... Any such
determination, however, would not be
necessary to decision of the first action and may
be denied preclusive effect on that score.
Differences in the burden of persuasion also
might occur so that an adversary who initially
carried a lower burden is confronted in later

98a

litigation with a higher burden. The abstract
answer to this possibility seems clear: a party
who has carried the burden of establishing an
issue by a preponderance of the evidence is not
entitled to assert preclusion in a later action
that requires proof of the same issue by a
higher standard.
The problems that arise from variations in the
burden of persuasion suggest that issue
preclusion also may be defeated by substantial
changes in the admissibility of evidence.
Differences in the availability of presumptions,
indeed, may be equivalent to differences in the
burden of persuasion. More generally, a finding
reached in proceedings constrained by formal
rules of evidence may not preclude relitigation
in proceedings that follow substantially more
permissive rules.”13
The laws of Puerto Rico are completely different
from the federal in terms of requirements, burdens of
proof (i.e., standard of persuasion and evidentiary
Puerto Rico’s Laws on
scheme) and remedies.

13 Charles Alan Wright, Arthur R. Miller & Edward H. Cooper,
on, cit.. 3d ed., Vol. 18, sec. 4422. See Com, v. Bunting. 401 Mass.
687, 518 N.E.2d 1159, 1162 (1988) (“failure of one party to
carry the burden of persuasion does not establish the
issue in favor of an adversary who otherwise would have
the burden in later litigation”); Freeman United Coal Min.
Co. v. Office of Workers’ Compensation Program. 20 F.3d 289,
294-295 (7th Cir. 1994) (“Failure of the claimant to carry the
burden in the state proceeding did not establish the issue
in favor of the employer, who must carry the burden in
this proceeding.”). Both cases quote Wright, Miller & Cooper.

99a

discrimination and retaliation require the employerdefendant to present more vigorous proof to rebut the
presumption of illegality. See Velez v. Thermo King
of Puerto Rico, Inc.. 585 F.3d 441, n. 7 (1st Cir. 2009)
(explaining that the burden of proof under Law 100 is
more favorable than the federal counterpart). The
Wrongful Termination Act establishes an important
presumption against the employer under which the
termination is considered unjustified until the
employer proves by preponderance of the evidence
that there is a just cause. Rivera v. Pan Pepin. 161
D.P.R. 681, 690 (2004); Diaz v. Wvndham Hotel Corn..
155 D.P.R. 364, 378 (2001). See Rivera Almodovar v.
Institute Socioeconomico Comunitario. Inc.. 2014 TA
2129 (Judgment of the Court of Appeals of Puerto Rico
issued on June 13, 2014)14. In other words, the burden
of proof to establish that the termination was justified
falls on the employer.
Under the previous doctrinal framework, it is
inappropriate the application of the doctrine of “issue
preclusion” to the plaintiffs claim for postemployment
retaliation,
a
and
separate
distinguishable matter which therefore cannot be
14 To the case at hand, the rule of law in force prior to the
approval of Law 4 of January 26, 2017 (“Labor Transformation
and Flexibility Act”) applies because it is based on facts,
situations and events that occurred before the effectiveness of
said law and which application the Legislative Assembly
expressly determined that it would be prospective. Article 1.2 of
said Act expressly provides for its prospective application. Said
article reads: “[ejmployees hired before the effective date of this
Act shall continue to enjoy the same rights and benefits they
enjoyed before ...”. See also Opinion of Secretary of Justice dated
January 24, 201[7] (sic).

100a
regarded as the “same matter”, which is predicated on
facts or events hot considered or adjudicated by the
Federal Court and on facts post-dating the filing of the
federal complaint, and that therefore were not
litigated and much less adjudicated in the Federal
Court. See paragraphs 174 to 190 of the abovecaptioned complaint. (Ap. A, 36-40). The plaintiff did
not have a fair opportunity to litigate that matter.
Similarly, the facts that gave rise to the plaintiffs
claims for torts and damages under Articles 1802 and
1803 of the Puerto Rico Civil Code were not actually
litigated and adjudicated either in the Federal Court •
(and in case of some of the facts having been litigated,
they were not considered or adjudicated by the
Federal Court). See paragraphs 22, 31, 32 (include
facts about the defamatory and harmful nature of
expressions and the negligent publication of them as
well as the description of other tort conducts not
adjudicated by the Federal Court), 33, 35, 38, 40, 56,
61, 62, 88, 118, 119, 123 (last sentence), 137-138, 142,
145, 178-183, 197-201, among others, of the abovecaptioned complaint (Ap. A, 1-43). Likewise, the
matter of whether there was a breach of contract
under Articles 1054 and 1077 of the Puerto Rico Civil
Code was not litigated or adjudicated either in the
Federal Court. See paragraphs 205-208 of the abovecaptioned complaint (Ap. A, 42). It should also be
noted that any determination of these facts
concerning the matters on whether the defendants’
acts and omissions caused torts and damages to the
plaintiff under Articles 1802 and 1803 or if there was
a breach of contract under Articles 1054 and 1077 was
not essential to the judgment entered in the Federal
Court with re'spect to Title VII legislation.
In

101a
addition, the legal rules and the elements that make
up these claims differ considerably from the claims
under Title VII. On the other hand, by declaring itself
without jurisdiction to address the claims filed under
the Puerto Rico laws, the Federal Court lacked the
authority to decide any particular matter with respect
to the local claims mentioned above so it is unlikely
that any matter or issue under the canopy of Puerto
Rico law has been actually adjudicated. In the case
Deflon v. Sawyers. 2006-NMSC-025, 139 N.M. 637,
137 P.3d 577, where the plaintiff first sued her former
employer under Title VII for sex discrimination in the
federal court and also included state-law claims and
after being dismissed such a lawsuit by summary
judgment filed a lawsuit at the state forum under her
state claims, the Supreme Court of New Mexico
determined not to apply the doctrine - of issue
preclusion understanding that her state claims could
not have been “actually and necessarily decided” as:
(1) a substantial portion of her evidence was excluded
in federal court but would not be excluded in state
court and (2) the standard of evidence for Title VII
claims is different from the standard to establish her
state claims. Thus, the Supreme Court of New Mexico
reversed the court of appeals which had erroneously
held that because the state claim was based on the
same facts as the federal lawsuit, and the federal
court believed that those facts were insufficient to
establish her causes of action that the plaintiff filed in
the federal forum, the collateral estoppel doctrine
prevented her from refiling her state claims and
erroneously concluded that her state claims had been
“actually and necessarily decided” by the federal court

102a

and that the plaintiff had had a fair opportunity to
litigate those matters or issues.
*

The issues concerning the wrongful termination
were not adjudicated by the Federal Court. Unlike
the federal sphere, the burden of proof in a case of
wrongful termination under Act 80 is with the
employer. It is not enough to set forth the reasons for
The employer must prove by
the termination.
preponderance of the evidence the reasons and that
the termination was justified; until then, it is
understood that the termination was unjustified.
Such differences in the evidentiary scheme between
the federal law and Law 80 (i.e., the shift in the
burden of proof to the employer and the change in the
standard of persuasion required) activate the
exception indicated earlier and make inappropriate
the application of the issue preclusion to the matters
concerning the wrongful termination. It should also
be noted that the elements or criteria to consider in
the analysis on whether the termination was justified
or not in accordance with Law 80 and its
interpretative jurisprudence were not adjudicated by
the Federal Court. Examples of these elements or
criteria are: the type of fault committed (i.e., minor or
common fault; major or grave fault); the
reasonableness of the rules of the employer; the
uniformity in the application of these rules; the
absence of warnings: if the alleged poor performance
(evidenced only by the opinion of the co-defendant
Bauza in a memo written by him after the plaintiff
internally complained at the firm and that the
defendants admit was never discussed with the

103a

plaintiff) really happened and if it became a habit, the
motive or intent of the co-defendant Bauza in writing
said memo; the reasons for not discussing with the
plaintiff the alleged performance deficiencies and not
offering her opportunities for improving; the existence
or absence of a pattern of conduct; the effect, if any, on
the operation of the firm; whether the termination
was in proportion to the alleged faults committed; the
existence of other alternatives to termination, the
employer’s conduct before the faults committed by
other employees, among others. See paragraphs 25,
68, 123, 126-137, 150, 192-196 of the above-captioned
complaint, among others (Ap. 1-43). Nor were they
essential matters for the Federal Court to issue its
judgment with respect to the federal claim under Title
VII which does not prohibit a capricious termination
if the same does not have a discriminatory or
retaliatory animus and whose evidentiary burden as
we pointed out is different from the Puerto Rico laws.
The decision of the Federal Court did not constitute a
determination with respect to Law 80 nor such
determination was necessary to the judgment
rendered.15 In addition, the Federal Court lacked
15 See Rath v. Gallup. Inc.. 51 F.3d 791, 793 (8th Cir. 1995),
quoted in Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, on. cit.. 3d ed., Vol. 18, sec. 4419 (“In the first action the
plaintiff claimed that he was fired in retaliation for pressing an
ERISA claim. The court concluded that the employer had
“articulated a legitimate, nondiscriminatory reason ... namely,
poor work performance,” that the plaintiff had not discredited
this showing, and that the defendant was entitled to summary
judgment because the plaintiff failed to show that the reason for
discharge was a pretext. The only issue that was determined was
that ERISA retaliation was not the reason for termination. “That

104a
authority to decide any matter about the termination
under Law 80 (i.e., if it was justified or not) once it
declared itself without jurisdiction to address the local
claims. Thus, it was inappropriate the application of
issue preclusion to the matters concerning the
wrongful termination.
The application of the issue preclusion doctrine
does not apply either to the matters relating to the
plaintiffs claims under Laws 100, 69 and 17 (i.e.,
gender > discrimination, hostile environment and
retaliation) under the exception above explained that
arises when there are differences in the procedures
followed or in the evidentiary scheme (i.e., differences
or changes in the burden of proof and standard of
persuasion; availability of presumptions). According
to this exception, a party (i.e., the defendants) whose
burden to prove a matter or issue is less rigorous in
the first lawsuit (i.e., set forth) has no right to invoke
“issue preclusion” in the subsequent lawsuit that will
it requires to prove that same matter or issue by a
more rigorous standard of persuasion (i.e.,
preponderance of the evidence). Note that the way in
which Title VII distributes the burden of proof was a
material element that caused the dismissal of the
federal question as well as the conduct of the federal
judge and the disparate manner in which he applied
the Local Rule 56 of the Federal Court between the
plaintiff and the defendants. See Ap. E, 334-339, 443533. It should also be noted that the dismissal of the
was the only issue that was ‘actually litigated’ for collateral
estoppel purposes.” It did not preclude litigation of the poor work
performance issue in parallel state proceedings claiming
wrongful discharge.”).

105a

federal claim under Title VII against the employer
does not result in collateral estoppel with respect to
the claim against the individuals under Laws 100, 69
and 17 (which allow to impose individual or personal
liability to the chief, officer, administrator,
supervisor, agent or representative of the employer).
In addition, there are issues or matters related to
these claims that were not actually considered or
adjudicated by the Federal Court (or that could be
considered actually litigated), requirements for the
general rule of issue preclusion to be applied. For
example, previous acts of the defendant Bauza while
he was at the law firm Goldman Antonetti & Cordova
where he wrote a writing disparaging the
performance of a female lawyer after complaining of
him for discrimination and hostile environment for
purposes of his motive in writing the memo
recommending the termination of the plaintiff;
whether several of the reasons adduced by the
defendants for said termination were post-hoc; the
conduct of other lawyers who did not exercise a
protected activity; the nature of such conduct and the
absence or the type of discipline for them; criteria
additional to temporal proximity, etc. Under the
federal rules of issue preclusion, matters that the
Court assumes or understands abandoned do not meet
the requirements of the doctrine of issue preclusion.16
16 See Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, op. cit.. 3d ed., Vol. 18, secs. 4419-4421 where these cases
are quoted: Adolph Coors Co. v. C. I. R.. 519 F.2d 1280, 1283
(10th Cir. 19751 (“Here, the ... issue was raised but, because it
was abandoned by the IRS, was not judicially determined. Under
these circumstances collateral estoppel cannot apply”);
Washington Water Power Co. V. F.E.R.C.. 775 F.2d 305, 341

106a

It is also not understood that the requirement of “ifair
opportunity to litigate the matter” was met when the
party was prevented from presenting essential
evidence (i.e., the oral testimony of witnesses that
were clients of the plaintiff, among others, for which
the other party did not demonstrate that their
testimonies did not raise a controversy of fact).
It should be reminded that the doctrine of res
judicata in any of its aspects does not apply in an
absolute or inflexible manner. The courts have been
reluctant to apply the doctrine of res judicata in any
of its two aspects when that would have the effect of
defeating the ends of justice and, especially, when the
controversy involves matters of high public interest.
Martinez Diaz v. ELA, supra (internal citations
omitted). The instant case includes, among others,
claims for salaries, gender discrimination including
(D.C. Cir. 1985) (“The purposes of issue preclusion do not support
preclusion as to a matter that was simply assumed, but neither
decided nor necessarily decided, in a prior proceeding”); In re
MDL-1824 Tri-State Water Rights Litigation. 644 F.3d 1160,
1189 n.21 (11th Cir. 2011) (“When an issue is merely assumed, it
does not meet the actual litigation requirement for collateral
estoppel.” The court in the prior action accordingly did not
examine the issue thoroughly because it was not fully litigated,
an added reason for denying preclusion.”); Mihos v. Swift. 358
F.3d 91, 98-101 (1st Cir. 2004) (“In ruling that the Governor of
Massachusetts did not have cause to remove a member of the
Turnpike Authority from office, the Supreme Judicial Court of
Massachusetts simply assumed the truth of the reasons she
assigned. There was no actual litigation of her motives. The
decision did not establish issue preclusion against a claim that
she actually discharged the plaintiff in retaliation for exercising
a First Amendment right to vote on a matter before the
Authority”).

107a

sexual harassment in the \yorkplace in its form of
hostile environment, and retaliation under Laws 100,
69 and 17; wrongful termination under Law 80 and
torts and damages, including damages as a result of
the conduct of the defendants (by themselves or
through their agents, supervisors or employees) that
injured the rights of privacy and the protection of the
plaintiff against abusive attacks to her dignity, honor,
personal integrity, personal and professional
reputation, private or family life. Contrary to what
the CFI has stated in its judgment, the present case is
permeated by considerations of high public interest
and constitutional values. In Puerto Rico, there is a
clear public policy of employment protection. Rivera
Figueroa v. The Fuller Brush Co. of PR. Inc.. 2011
TSPR25,180 DPR___(2011). As it is a matter of such
high public interest, the State, as part of its public
policy, approved Law 80 for the sake of protecting the
worker who has been unjustifiably deprived of his
employment and at the same time discouraging the
employers from incurring this practice. Feliciano
Martes v. Sheraton. 182 D.P.R. 368, 379-380 (2011);
Velez Cortes v. Baxter. 179 D.P.R. 455, 468-469
(2010).
Both gender discrimination and sexual
harassment have also been considered by our
Supreme Court to be matters vested with high public
interest.17 There is also a clear public policy of
condemning such discriminatory actions. On the
other hand, the right to privacy, to equality and
dignity of the human being as well as the right to
protection of law against abusive attacks on one’s
honor, reputation and private or family life are rights
17 29 L.P.R.A. sec. 1321; 29 L.P.R.A. sec. 155.

108a

enshrined by our Constitution and as such are also
vested with a high public interest. The rights to
dignity, personal integrity and privacy are
fundamental constitutional rights that enjoy the
highest hierarchy and constitute a crucial dimension
in human rights.
Garcia Benavente v. Alioma
Lumber. Inc.. 2004 T.S.P.R. 125, 162 D.P.R. ___
(2004). In Puerto Rico, “it has been public policy to
protect workers as much as possible, thus creating a
climate of worker-employer harmony indispensable
for the progress and well-being of all sectors of the
community.” Lopez Santos v. Tribunal Supremo. 99
DPR 325, 330 (1970); Whittenburg v. Iglesia Catolica,
182 DPR 937 (2011).
In the light of the extensive legal rules governing
Puerto Rico and the nature of the claims filed by the
plaintiff, the CFI should have recognized that they
were vested with a high public interest, but did not.
Note that the CFI accepted the motion of the
defendants as one for dismissal of the complaint so it
should have given the plaintiff the benefit of as much
inference as it is possible to draw from the facts
alleged in said complaint. In so doing, the facts are
not prejudged before the Court.18 In evaluating a
motion to dismiss, all of the factual allegations in the
complaint must be taken as true. Furthermore, the
assertions contained in the allegations must be
interpreted in favor of the plaintiff. J.A. Echevarria
Vargas, Procedimiento Civil Puertorriqueno. 2012,
Colombia, p. 107, citing the case Hargundev Ferrer v.
U.I., 148 DPR 13 (1999). The CFI did not act in
18 J. A. Cuevas Segarra, op. cit.. p. 532 (internal citations
omitted).

109a
accordance with the judicial precedents and the
procedural rules above mentioned.
Our Supreme Court has also refused to apply the
res judicata doctrine with respect to a previous
judgment which is null (i.e., where the due process of
law has not been observed); a judgment of the court of
first instance whose review was attempted but could
not be achieved for reasons beyond the will of the
appellant; a previous judgment that was obtained
through fraud or that which defeats the ends of
justice; and cases that are permeated by public policy
considerations. See Vidal v. Monagas. 66 DPR 622
(1946); Riera v. Piza. 85 DPR 268, 274 (1962); Suarez
Fuentes v. Tribunal Superior. 88 DPR 136 (1963);
Feliciano Ruiz v. Alfonso Develop. Corn.. 96 DPR 108,
114 (1968); Pagan Hernandez v. U.P.R.. 107 DPR 720,
736 (1978); Millan v. Caribe Motors Corn.. 83 DPR
494, 509 (1961) (quoted in Partido Nuevo Progresista
v. De Castro Font. 2007 TSPR 230, 172 DPR ___
(2007)).
In that regard, the plaintiff presented evidence to
the CFI in her Opposition of March 20, 2017 (Ap. E,
324-1,291), of how her rights to a due process of law
and to receive a sensible, fair and impartial treatment
in the court were violated in a number of occasions,
feeling the plaintiff at a given time coerced to submit
a voluntary dismissal of her claims (motion that was
not granted), by or through: (1) expressions of the
federal judge at a time when he was not in a position
to make them which denoted a predisposition of the
court not only to dismiss the case, but more
significantly still, to impose substantial attorneys’
fees on the plaintiff (contrary to what the CFI said,

110a
the fees under Title VII are imposed on the basis of
federal judicial rules - which were not followed in this
case - and not under the concept ofvexatiousness); (2)
ex parte communications between the federal judge
and the attorney of the defendants when several
motions, including that of summary judgment at the
federal level, were pending to be resolved; (3)
arbitrarily ignoring the judicial precedent established
by the U.S. Supreme Court in the case Fox v. Vice. 131
S. Ct. 2205 (2011) as part of its analysis, placing the
plaintiff in a different standard than the one that
would correspond to any citizen; (4) ignoring
announced witnesses; (5) excluding or ignoring
evidence; (6) including in a summary judgment to
public access, as part of its findings of facts, irrelevant
information of past relations or boyfriends of the
plaintiff or medical information of her for the sole
purpose of humiliating and embarrassing the
plaintiff. In addition, the plaintiff demonstrated to
the CFI the falsity in the representation of the facts
that the defendants have made and their vexatious
conduct. Notwithstanding all the foregoing, the CFI,
through actions similar to those of the federal forum,
ignores the judicial precedent of Martinez Diaz v.
ELA, supra; the exceptions to the doctrine of claim
preclusion in the federal rules; raises motu propio the
affirmative defense of issue preclusion and denies the
nature of public interest to the claims of the plaintiff,
ignoring all the extensive jurisprudence for such
purposes, all to dismiss with prejudice all the claims
of the plaintiff, even those that were never litigated at
the federal forum. All of the above results in a grave
injustice for the plaintiff, who has been deprived of her
right to a due process of law and where the, higher

111a

values of finding truth and doing justice within an
impartial, sensible and fair treatment have been
absent, having to incur in litigation expenses to
protect and vindicate her rights without having the
resources to do so. The nature of the actions or errors
committed in this case (including at the federal level)
reveal an appearance of lack of impartiality from the
perspective of a reasonable and prudent person.

CERTIFICATE OF TRANSLATION INTO
ENGLISH
I, Pura M. Reyes Gilestra, PhD, of legal age,
married, a resident of San Juan, Puerto Rico, a
professional translator/interpreter/editor certified
by the American Translator Association (#244688)
and the National Association of Judiciary
Interpreters and Translators (#3449), to the best of
my abilities, do HEREBY CERTIFY that the
foregoing is a precise and true translation from its
original document in Spanish which I have seen.
In San Juan, Puerto Rico, today, June 06, 2019.

Pura M. Reyes Gilestra
E ditor/Interpreter/Translator

» iA< i

112a
[CERTIFIED TRANSLATION]
APPENDIX K
IN THE PUERTO RICO SUPREME COURT
LOURDES FONTANILLAS
LOPEZ
Petitioner
V.
MORELL BAUZA
CARTAGENA & DAPENA
LLC; RAMON ENRIQUE
DAPENA GUERRERO;
ANTONIO BAUZA
SANTOS; EDGARDO
CARTAGENA SANTIAGO;
PEDRO ANTONIO
MORELL LOSADA; MRS.
LOURDES M. VAZQUEZ;
UNKNOWN INSURANCE
COMPANIES A, B, C; JANE
DOE; JOHN DOE AND
UNKNOWN COMPANIES
X, Y, Z
Respondents

CC-18-1060
CERTIORARI from
the
Court
of
Appeals,
Judicial
Region of AreciboAguadilla, Panel X
CA [COURT OF
APPEALS] No.:
KLAN201701134
CFI Civil No.: JPE2017-0033 (604)
Re:
WRONGFUL
TERMINATION,
RETALIATION,
DISCRIMINATION,
HOSTILE WORK
ENVIRONMENT,
TORTS AND
DAMAGES,
WAGES, BREACH
OF CONTRACT
AND SUMMARY
PROCEDURE,
LAW 2

113a

[stamp]
(FILED CLERK’S OFFICE
SUPREME COURT
18 DEC - 3 AM 11:45)
[stamp]
(FILED CLERK’S OFFICE
COURT OF APPEALS
2018 DEC - 3 PM 12:32)
PETITION FOR CERTIORARI

***the CA committed a gross error of Law and abuse
of discretion by: (a) deviating from the federal rules as
to the exceptions to the applicability of the doctrine of
claim preclusion in connection with the instant case;
and (b) tacitly extrapolating to the doctrine of claim
preclusion factors or elements proper to the issue
preclusion defense even when the CA correctly
adjudicated that said defense was waived by the
respondents by not raising it, and the CA stated that
it would limited itself to examine the application of
the claim preclusion, without alluding to issue
preclusion.1 With such action, the CA makes its
determination inconsequential that the respondents
did not raise and thus waived the issue preclusion
1 Cf.: Dominguez Rubio v. Hewlett Packard Carihe VR. IJ.C1
2016 TA 4313 (Judgment of the Court of Appeals of Puerto Rico
issued on October 31, 2016, case KLCE201601566) (where the
defendant raised in its answer both defenses of claim preclusion
and issue preclusion, something that didn’t happen in the
instant case, and the TA resolves on the basis of the doctrine of
issue preclusion).

114a

defense. Likewise, the CA enters into clear conflict
with the decisions of the high forum in Ramos
Gonzalez v. Felix Medina. 121 DPR 312 (1988),
Martinez Diaz v. ELA, 2011 TSPR 116, 182 DPR 580
(20 ll)2, and Presidential Financial Corn, v.
Transcaribe Freight Corn., 2012 TSPR 122, 186 DPR
__ (2012); and with the decisions rendered by other
CA panels as regards to the non-applicability of the
claim preclusion doctrine on those claims over which
the federal court, despite having been requested,
refused to assume jurisdiction and dismissed without
prejudice. From the judgment of the CA, now comes
petitioner before this High Forum so that the
judgment of the CA be modified to the effect of
reversing the judgment of the CFI in its entirety and
not only with respect to the wage claim.
*

*

*

V. INDICATIONS OF ERROR
A. THE CA ERRED AND ABUSED ITS
DISCRETION BY NOT REVERSING THE
APPEALED JUDGMENT OF THE CFI IN ITS
ENTIRETY AND INSTEAD AFFIRMING THE
APPEALED JUDGMENT OF THE CFI WITH
RESPECT TO THE DISMISSAL WITH
PREJUDICE OF ALL THE CLAIMS OF THE
PETITIONER (EXCEPT FOR THE SALARIES
AND
PAYMENT
OF
ACCUMULATED
BENEFITS) ON GROUNDS OF CLAIM
PRECLUSION NOTWITHSTANDING THAT
2 In analyzing the defense of “claim preclusion” and its
exceptions, there should be no distinction between the instant
case and the case Martinez Diaz v. ELA. supra (i.e., a judge vis a
vis a jury), which substantiates or justifies the decision of the CA;

115a

THE CASE FILED IN THE FEDERAL COURT
WAS DISMISSED WITHOUT PREJUDICE
(PERMITTING A SECOND SUIT) WITH
RESPECT TO THE ABOVE-CAPTIONED
CLAIMS FILED UNDER PUERTO RICO
LAWS, NOT ASSUMING THE FEDERAL
COURT SUPPLEMENTAL JURISDICTION
OVER THEM, DESPITE OF HAVING BEEN
REQUESTED,
BEING
SUCH
CIRCUMSTANCES AN EXCEPTION TO THE
APPLICATION OF THE FEDERAL DOCTRINE
OF CLAIM PRECLUSION.
B. THE CA ERRED AND COMMITTED A GROSS
ABUSE
OF
DISCRETION
IN
INTERPRETATING AND APPLYING THE
FEDERAL
DOCTRINE
OF
CLAIM
PRECLUSION TO THE INSTANT CASE, BY
IGNORING OR REFUSING TO APPLY THE
EXCEPTIONS ESTABLISHED BY THE
FEDERAL RULES TO THE DOCTRINE OF
CLAIM PRECLUSION AND TAKING INTO
CONSIDERATION FACTORS OR ELEMENTS
ONLY RELEVANT TO THE DEFENSE OF
ISSUE PRECLUSION NOTWITHSTANDING
HAVING CORRECTLY ADJUDICATED THAT
THE RESPONDENTS DID NOT RAISE AND
THEREFORE
WAIVED
THE
ISSUE
PRECLUSION DEFENSE.
C. THE CA ERRED AND COMMITTED A GROSS
ABUSE OF DISCRETION BY MAKING THE
FEDERAL COURT’S CONCLUSIONS OF
FACTS OR LAW BINDING TO THE INSTANT
CASE NOTWITHSTANDING THAT THEY DO

116a

NOT
CONSTITUTE
A
COLLATERAL
ESTOPPEL OR ISSUE PRECLUSION SINCE
THE
RESPONDENTS
WAIVED
SUCH
DEFENSE.
D. THE CA ERRED BY NOT CONSIDERING OR
ADDRESSING ON THE MERITS THE
ARGUMENTS WITH RESPECT TO THE
OTHER ABOVE-CAPTIONED CLAIMS THAT
WERE NOT LITIGATED NOR ADJUDICATED
BY THE FEDERAL COURT AS INDICATED IN
OUR APPEAL BRIEF BEFORE SAID FORUM,
IN WHICH IT WAS EXPLAINED THAT THE
CFI ERRED IN INTERPRETATING AND
APPLYING THE FEDERAL DOCTRINE OF
CLAIM PRECLUSION TO THE INSTANT
CASE.
*

*

*

***the CA upon affirming the dismissal judgment of
the CFI (except with respect to the wage claim): (1)
tacitly extrapolated in its analysis of the claim
preclusion doctrine the factors or elements proper to
the issue preclusion defense; and (2) ignored or
departed from the federal rules concerning the
exceptions to the applicability of the doctrine of
claim preclusion with respect to the instant case, as
argued by the petitioner in her appeal brief,
supporting its decision entirely on the elements of the
aforesaid waived defense (i.e., issue preclusion).
Thus,
the
CA
makes
its
determination
inconsequential that the respondents did not raise
and thus waived the issue preclusion defense.
Likewise, the CA makes the Federal Court’s

117a

determination of allowing a second suit in a futile act
and enters in a clear conflict with the federal rules,
with the decisions of this High Forum in Ramos
Gonzalez v. Felix Medina, supra, Martinez Diaz v.
ELA, supra, and Presidential Financial Corn, v.
Transcaribe Freight Com., supra, and with the
determinations of other CA panels as regards to the
non-applicability of the federal doctrine of claim
preclusion on those causes of action over which the
federal court, despite having been requested, refused
to assume jurisdiction and dismissed without
prejudice.8 We explain.
In pages 12 and 13 of its judgment, (Ap. P, 1,3971,398), the CA argues and extrapolates the
conclusions of fact or law contained in the federal
judgment to apply the doctrine of claim preclusion and
to prevent the instant case from be heard on the
merits in the CFI despite the fact that the Federal
Court clearly allowed a second action by dismissing
without prejudice the state claims of the petitioner.
Moreover, the findings of fact or conclusions of law of
the federal judgment are not binding to the instant
case since the respondents did not raise and,
therefore, waived the issue preclusion defense and
should not be brought in examining the application of
the claim preclusion defense.9 The issues of fact or
8 Note that as the Federal Court assumed jurisdiction of the
Petitioner’s claims filed under Title VII against respondent
MBCD under the doctrine of federal question, the analysis of the
effect of the Federal Court’s judgment to the instant case must
be made under federal law. Martinez Diaz v. ELA. supra.
9 Nor are they supported by the documentary evidence
contained in the case record. See Ap. E., 324-1,291.

118a

law raised and decided in an earlier action and that
are sought to be precluded in the subsequent dction
are elements proper to the issue preclusion defense.
With its actions, the CA tacitly is raising motu propio
and considering the defense of issue preclusion (as did
the CFI), which is not permitted as warned by this
High Forum.
Presidential Financial Corn, v.
Transcaribe Freight Corn., supra.
In our legal
system, the rights must be asserted; it is
inappropriate for a court to serve as an advocate of the
defendant.10 The CA and the CFI should have
limited their analysis to the elements,
exceptions and limitations of the federal
doctrine of claim preclusion. By not doing so, the
CA and the CFI abused their discretion and
committed a manifest error of law because the
principles and requirements that this High Forum
has established in order to successfully present an
affirmative defense, are being violated. See Rule 6.3
of the RPC [Rules of Civil Procedure]; Diaz Avala v.
E.L.A.. 153 D.P.R. 675, 695 (2001). It is also contrary
to law since Section 3 of Law 2 prohibits it. Likewise,
the petitioner’s right to a due process of law (i.e., her
day in court) is being violated. On the other hand, in
its interpretation and application of the doctrine of
claim preclusion to the instant case, the CA
committed a gross error of law by refusing or omitting
to apply the exceptions that the doctrine of res
judicata have in the federal sphere, as discussed in
Martinez Diaz v. ELA. supra. Specifically, the CA on
10 J. A. Cuevas Segarra, Tratado de derecho procesal civil. 2d ed.,
V. II, San Juan, Publicaciones JTS, 2011, p. 413. See Alamo v.
Sunermercado' Grande. Inc., 158 D.P.R. 93,‘^ltJ5'‘n. 10 (2002).

119a

page 13 of its judgment concluded “that the refusal of
the federal forum to assume supplemental jurisdiction
over the claims covered by the state law does not
operate as a procedural barrier in this case [...] that
prevents the interjurisdictional application of the
claim preclusion doctrine”, and in clear violation to
the federal rules refused to apply to the instant case
the exception that allows to re-litigate a cause of
action or part of it when the court was unable to
address the totality of the cause of action
because it lacked jurisdiction or authority to
address the matter”.
(Emphasis in original).
Martinez Diaz v. ELA. supra, citing with approval the
Restatement (Second) of Judgments, sec. 26 (1982)......
*** In other words, because the claims filed under
the laws of Puerto Rico were dismissed without
nreiudice for lack of jurisdiction, it cannot be
considered that there was an adjudication on
the merits with respect to them so the doctrine
of claim preclusion should not be applied.12 ***
The federal judgment does not constitute claim
preclusion over the state claims. Ramos Gonzalez v.
Felix Medina, supra, ’k’k'k The federal rule of this
exception is clear and does not provide any distinction

12 See Audette v. International Longshoremen’s Union. C.A. 9th,
1999, 195 F.3d 1107, 1111 n.l (“A decision refusing to assert
supplemental jurisdiction over state-law claims joined with
federal-question claims and dismissing the state claims without
prejudice was not a judgment on the merits and did not support
res judicata”), cited in Charles Alan Wright, Arthur R. Miller &
Edward H. Cooper, Federal Practice and Procedure. West Group,
2d ed., Vol. 18A, sec. 4436.

120a

between a summary judgment and a verdict so that
the distinction made by the CA (Ap. P, 1,398) between
this case and the case Martinez Diaz v. ELA does not
hold in law. Thus, it is contrary to the law and
constitutes a gross abuse of discretion, the judgment
of the CA which except for the wage claim affirms the
dismissal judgment of the CFI on grounds of the claim
preclusion doctrine, deviating itself from all the
jurisprudence and precepts above-mentioned.
It should also be noted that the CA, without
providing a basis for it, did not address or adjudicate
our arguments regarding the claims in the abovecaptioned complaint predicated on events or facts
occurred after the filing date of the federal complaint,
whose federal rule is that the doctrine of claim
preclusion does not prevent them.13

Note that despite of the previously explained
doctrinal framework (including exceptions and
limitations), the CA only modified the dismissal
judgment of the CFI to exclude the wage claim
without providing justification and foundation for not
extending the same treatment to the other
aforementioned
claims
(i.e.,
post-employment
retaliation, torts and damages and breach of contract)
that are based on facts that were not actually litigated
and adjudicated in the Federal Court. See p. 14 of the
CA Judgment (Ap. P, 1,399).

13 See Charles Alan Wright, Arthur R. Miller & Edward H.
Cooper, on. cit.. 3d ed., Vol. 18, Sec. 4409.

121a

. Notwithstanding all that has been explained
above, the CA and the CFI, through actions similar to
those of the federal forum, ignore or refuse to apply
the judicial precedents of Ramos Gonzalez v. Felix
Medina, supra, and Martinez Diaz v. ELA, supra, with
respect to the exceptions to the doctrine of claim
preclusion in the federal rules; raise motu propio the
affirmative defense of issue preclusion or extrapolate
its elements to the doctrine of claim preclusion
(without observing the own exceptions and limitations
of the issue preclusion) and deny or do not address the
nature of public interest of the plaintiffs claims,
ignoring the extensive jurisprudence for such
purposes, all to dismiss with prejudice all the claims
of the plaintiff (except for the wage claim due to the
CA modified judgment), even those that were never
litigated and adjudicated at the federal forum. All of
the above results in a grave injustice for the
petitioner, who has been deprived of her right to a due
process of law and where the higher values of finding
truth and doing justice within an impartial, sensible
and fair treatment have been absent, leaving the
petitioner subjugated to a continuous illegal
discrimination, with the emotional and economic
consequences that it carries (e.g., unemployment and
her reputation and professional career unreasonably
and with impunity destroyed). The nature of the
actions or errors committed in this case (including at
the federal level) reveal an appearance of lack of
impartiality from the perspective of a reasonable and
prudent person that certainly undermine the purity
and confidence in the judicial proceedings.

122a

CERTIFICATE OF TRANSLATION INTO
ENGLISH
I, Pura M. Reyes Gilestra, PhD, of legal age,
married, a resident of San Juan, Puerto Rico, a
professional translator/interpreter/editor certified
by the American Translator Association (#244688)
and the National Association of Judiciary
Interpreters and Translators (#3449), to the best of
my abilities, do HEREBY CERTIFY that the
foregoing is a precise and true translation from its
original document in Spanish which I have seen.
In San Juan, Puerto Rico, today, June 06, 2019.

Pura M. Reyes Gilestra
Editor/Interpreter/Translator

